<html>
<title> - SLEEPING DANGER: THE ROCK `N PLAY AND FAILURES IN INFANT PRODUCT SAFETY</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                   SLEEPING DANGER: THE ROCK `N PLAY
                         AND FAILURES IN INFANT
                             PRODUCT SAFETY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 7, 2021

                               __________

                           Serial No. 117-26

                               __________

      Printed for the use of the Committee on Oversight and Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-872 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Mike Quigley, Illinois

                      Russ Anello, Staff Director
                 Cassie Fields, Chief Oversight Counsel
                       Elisa LaNier, Chief Clerk
                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------                                
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on June 7, 2021.....................................     1

                               Witnesses

Ynon Kreiz, Chief Executive Officer, Mattel Inc.
    Oral Statement...............................................     5

Chuck Scothon, Senior Vice President and General Manager, Fisher-
  Price, Global Head of Infant and Preschool, Mattel Inc.
    Oral Statement...............................................     6

 Opening statements and the prepared statements for the witnesses 
  are available in the U.S. House of Representatives Repository 
  at: docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

Documents entered during the hearing by Unanimous Consent (UC), 
  and Questions for the Record (QFR's) are listed below.

  * UC - Letter from Consumer Reports; submitted by Rep. Raskin.

  * UC - Letter from Consumer Reports; submitted by Chairwoman 
  Maloney.

  * UC - Letters From Erika Richter, mother, on failures in 
  infant safety product; submitted by Chairwoman Maloney.

  * UC - Letter from CFA, KID, Public Citizen Combined; submitted 
  by Chairwoman Maloney.

  * UC - Committee on Oversight and Reform Staff Report; 
  submitted by Chairwoman Maloney.

  * QFRs to: Mr. Kreiz; submitted by Rep. Davis.

  * QFRs to: Mr. Scothon; submitted by Rep. Davis.

Documents are available at: docs.house.gov.

 
                   SLEEPING DANGER: THE ROCK `N PLAY
                         AND FAILURES IN INFANT
                             PRODUCT SAFETY

                              ----------                              


                          Monday, June 7, 2021

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 11:07 a.m., in 
room 2154, Rayburn House Office Building, Hon. Carolyn B. 
Maloney v[chairwoman of the committee] presiding.
    Present: Representatives Maloney, Norton, Lynch, Connolly, 
Krishnamoorthi, Raskin, Khanna, Mfume, Tlaib, Porter, Davis, 
Wasserman Schultz, Johnson, Sarbanes, Speier, Kelly, 
DeSaulnier, Pressley, Foxx, Grothman, Cloud, Norman, Sessions, 
Keller, Biggs, Franklin, Fallon, and Donalds.
    Chairwoman Maloney. The meeting will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time. I now recognize myself for 
an opening statement.
    Today's hearing addresses the tragic consequences of 
companies selling dangerous consumer products and the Federal 
Government's failure to protect Americans from these products. 
Specifically we will examine the Rock 'n Play, an infant 
sleeping product sold by Mattel under the Fisher-Price brand. 
In the 10 years that this product was sold on the market, at 
least 50 infants died while using it. That is at least 50 young 
lives cut short, the families shattered by the tragic loss of a 
child. Yet Mattel and its subsidiary, Fisher-Price, walked away 
with more than $200 million.
    In 2019, this committee launched an exhaustive 
investigation into how the Rock 'n Play was developed, 
marketed, and later recalled. Our staff conducted interviews 
and reviewed thousands of pages of documents. This morning we 
are going to be releasing this report which you can get on the 
core website and my congressional website. What we found was 
absolutely shocking. It is a national scandal.
    When Mattel released the Rock 'n Play in 2009, it was the 
only product of its kind on the market. Pediatricians had 
advised for years that infants should sleep on a firm, flat 
crib mattress to prevent death or injury. But Rock 'n Play was 
a padded seat, holding infants at a 30-degree angle. Even 
though this new design conflicted with safety guidelines, our 
investigation shows that Mattel did not consult with a single 
pediatrician or conduct a single scientific study to find out 
if it was safe for babies to sleep at an angle. Internal 
documents also show that over the decade this product was sold, 
Mattel repeatedly ignored urgent warnings from international 
regulators, pediatricians, and even its own customers that the 
Rock 'n Play was unsafe.
    For example, in 2010, a regulator in Australia warned 
Mattel that using this product as a sleeper, quote, ``is at 
odds with widely accepted and promoted best practices,'' end 
quote.
    In 2011, the company was banned from marketing the Rock 'n 
Play as a sleeper in Canada because of safety concerns.
    And in 2013, the American pediatricians, one American 
pediatrician, wrote and said, and I quote, ``I am concerned 
that parents are using this product as a routine sleeping area 
for their babies. This is unsafe,'' end quote.
    Mattel also received a steady drumbeat of reports that 
infants as young as two months old had stopped breathing or 
even died in the Rock 'n Play. Mattel employees admitted to the 
committee that the company knew about these deaths and 
injuries, but Mattel claimed that its product was not the 
problem.
    In 2018, the Consumer Product Safety Commission, or CPSC, 
finally became concerned about the number of infant deaths in 
Rock 'n Play and demanded information about the product from 
the company. But rather than take action to warn consumers, 
Mattel pushed back against CPSC's concerns in private for 
nearly a year to try to avoid a recall. Mattel kept denying 
that there was any problem with Rock 'n Play, even as more and 
more infants died.
    The CPSC was legally prohibited from warning the public 
about the dangers with the Rock 'n Play during these 
negotiations. That is because the Consumer Product Safety Act 
makes it extremely difficult for the agency to disclose 
information about dangerous products without the consent of the 
manufacturer. In fact, Mattel only agreed to recall it after it 
became clear that the Consumer Reports was about to publish a 
very damning evidence that dozens of infants died using the 
Rock 'n Play. The committee's investigation makes clear that 
Mattel and its subsidiary, Fisher-Price, put profits over 
people with tragic results.
    On Friday we learned that Mattel is recalling two more 
inclined infant products that the company marketed for sleep, 
the Rock 'n Glide Soother and Soothe 'n Play Glider, after four 
infants rolled over in the rock in glide and suffocated. In 
other words, they died because of the exact same dangerous 
product design as the infants who died in Rock 'n Play. It is 
shocking that Mattel did not remove those products from the 
market sooner, given the devastating consequences of keeping 
the Rock 'n Play on the market.
    Stronger regulation can prevent these tragedies. Current 
law cedes far too much power to the corporations selling 
consumer products, while tying the hands of the government 
agency charged with keeping people safe. The law allows many 
companies to be subject to only voluntary standards that they 
helped create, rather than mandatory safety rules. And it does 
not give the CPSC the tools it needs to prevent dangerous 
products from being released to the public or to remove 
products from the market when they are proven to be dangerous.
    We must strengthen our Nation's consumer protection laws 
and empower the CPSC to do its job so that companies making 
money off a product don't have the final word on whether it is 
safe. I encourage my colleagues to carefully review the 
findings from the committee's investigation and to work 
together on a bipartisan basis to better protect Americans from 
dangerous products.
    I want to close by playing video statements from two 
parents who want to share their experience about their 
terrible, immeasurable loss. The video.
    Mr. Johnson. If the video is running, we're not able to see 
it.
    Chairwoman Maloney. We're not seeing it here either. There 
seems to be a technical problem. Are they correcting it? They 
are fixing the technical problem right now. I apologize for the 
delay.
    We can come back to it after Mr. Cloud speaks. I now 
recognize Mr. Cloud for an opening statement.
    Mr. Cloud.
    Mr. Cloud. Thank you, Madam Chair.
    Hello. Can you hear me?
    Thank you, Madam Chairwoman. Appreciate you having this 
hearing today.
    Appearing before us today are two of the top executives 
from Fisher-Price and its parent company, Mattel, who will 
speak to a product that has been the focus of an ongoing 
investigation by this committee since 2019. The Rock 'n Play 
Sleeper is a product that seems to have prioritized profits 
over safety of the most vulnerable newborn infants and their 
families. I hope that they will continue to convince us that 
this is, in fact, not the case.
    Overwhelmingly it appears that the use of inclined sleepers 
is not safe for unintended infant sleep. And the questions this 
committee faces are whether Fisher-Price knew the risks to 
infants when first marketing the product, whether it made 
attempts to change its strategy upon learning its product 
contributed to the deaths of over two dozen infants, and 
whether legislative changes need to be made to bolster consumer 
protection laws to such tragedies to ensure that they're not 
repeated.
    Last week the Consumer Product Safety Commission deemed 
inclined sleepers to be unsafe for use for infants. From our 
own investigation it appears Fisher-Price either failed to 
conduct or simply ignored research that would indicate from the 
outset that marketing a product such as a Rock 'n Play Sleeper 
as an appropriate place for infants to sleep was ill-conceived 
and dangerous. Fisher-Price consulted with a single physician 
who has since been prohibited from practices medicine. No 
pediatricians were consulted about the creation of this 
product, and it's difficult to come up with a legitimate reason 
for why that was. What is the reason Fisher-Price could have 
for not bringing in a wide-ranging medical expertise and 
experience?
    Additionally, alarm bells were not set off inside Fisher-
Price when its development team first learned children had died 
using their product and there was no mechanism in place to 
investigate. Dozens of children have died in connection with 
the Rock 'n Play Sleeper. And if Fisher-Price was negligent or 
reckless in its marketing, it should have to pay heavily for 
the loss of life it caused.
    I do think it's important to bring up at this moment as 
well, however, that no amount of compensation can account for 
the loss of a child. But the use of this committee, as opposed 
to the courts, which are better suited as delivering a specific 
remedy to the victims and assigning specific punishment to bad-
acting companies, should be considered as well. If we're 
looking at product safety as a policy, we should expand the 
scope of this hearing and include other products so we can make 
a broad-based legislative policy.
    There are hundreds of other things affecting the lives of 
thousands of Americans that they are waiting for this committee 
to address as well. For comparison, last Congress this 
committee held hearings on unaccompanied minors at our southern 
border, the stockpiling and distributing of PPE, the Trump 
administration's response to COVID, the Trump administration's 
Afghan strategy, the Syria policy. We discussed contracting for 
the response to rapidly building respirators and had a hearing 
criticizing the Warp Speed effort that brought us the vaccine.
    It would be one thing if these issues had already been 
resolved but the border crisis is worse than ever and we have 
more children in custody than ever before. Progress on peace in 
the Middle East has been reversed. Revelations coming out about 
the origins of the COVID-19 are worth looking at by this 
committee.
    But this committee has held no hearing on the awarding of a 
half-billion-dollar contract to Family Endeavors, a company run 
by a former Biden transition official. This committee has held 
no hearings on our southwestern border which saw over 1,000 
apprehensions in February, 173 in March, 178 in April, with 
seemingly no end in sight.
    This committee has not responded or requested Dr. Anthony 
Fauci or anyone at NIH to come and testify on the origins of 
COVID-19, in spite of new revelations. We've not held a hearing 
on the ongoing Antifa violence in Portland. We have not held a 
hearing on why there's such a rush to cover up those who 
discussed and talked about different contrasting ideas and 
theories regarded to the COVID-19, both within government and 
within the media.
    This committee has not held a hearing on China, big tech, 
world broadband, or any other important bipartisan topics that 
daily affect the lives of thousands in our Nation. These issues 
address real threats to the security of our Nation and 
address--affect the lives of many thousands in our Nation.
    But this is an important hearing, however. And I'm thankful 
that we are taking it up. I look forward to asking questions 
today, and I really do hope that our witnesses are able to 
provide some explanation for what appears to be a horrible 
tragedy that their companies had the power to prevent.
    Thank you, and I yield back.
    Chairwoman Maloney. The gentleman yields back.
    I want to see if we've corrected our technical challenges. 
Can we see the statement from the two parents now? If not, we 
will go to Mr. Krishnamoorthi for an opening statement.
    [Video shown.]
    Chairwoman Maloney. Thank you for your very, very strong 
statements. And we will strengthen protections for American 
families.
    Mr. Krishnamoorthi, you are now recognized for one minute.
    Mr. Krishnamoorthi. Thank you, Chairwoman Maloney. Thank 
you for holding this hearing.
    This is an investigation that we started with Chairman 
Cummings, and I know that he'd be proud of the work we're doing 
today. We've investigated a number of companies that make 
products for babies, companies that are household names like 
Johnson & Johnson, Gerber, and now Fisher-Price. Each time 
we've expected these companies to take greater precautions, 
given their intended users. Each time we've expected companies 
to change or remove products when their dangers became 
apparent, and each time we've been gravelly disappointed.
    Fisher-Price put the Rock 'n Play Sleeper on the market, 
ignoring safety concerns prior to its launch. And when private 
reports came in that the product was linked to babies' deaths, 
Fisher-Price ignored those reports, too. Only when media 
outlets like Consumer Reports publicized the danger of their 
products did Fisher-Price take them off the market.
    Companies like Fisher-Price and Mattel have demonstrated 
that they cannot, they cannot be left to police themselves. 
Unfortunately, regulators must continue to step up and 
carefully regulate products for babies and children. Today's 
hearing will illuminate why.
    Thank you, Madam Chairwoman, and I yield back.
    Chairwoman Maloney. The gentleman yields back.
    The witnesses will be unmuted so that we can swear them in.
    I would like to first introduce. Our first witness today is 
Ynon Kreiz who is the CEO of Mattel. Our second witness is 
Chuck Scothon who is the senior vice president and general 
manager of Fisher-Price.
    Please raise your right hands.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that the witnesses answered in the 
affirmative. Thank you. Without objection, your written 
statements will be made part of the record.
    With that, Mr. Kreiz, are you now recognized for your 
testimony.

 STATEMENT OF YNON KREIZ, CHIEF EXECUTIVE OFFICER, MATTEL INC.

    Mr. Kreiz. Chairwoman Maloney, Ranking Member Comer, and 
members of the committee, thank you for the opportunity to 
appear before you today to discuss Mattel's approach to 
consumer product safety.
    Mattel is a leading global toy company with a mission to 
create innovative products and experiences that inspire, 
entertain, and develop children through play. Since our 
founding in 1945, Mattel has been proud to be a trusted partner 
in empowering children to explore the wonder of childhood and 
reach their full potential.
    Fisher-Price was founded over 90 years ago and was acquired 
by Mattel in 1993. Fisher-Price's purpose is to be the most 
trusted brand for parents and caregivers for babies, toddlers, 
and preschoolers. We take our heritage as a trusted partner to 
parents and families very seriously, and we earn that trust by 
being true to our mission and purpose and operating with 
integrity. This requires that we act as responsible corporate 
citizens, pursue social, economic, and environmental 
sustainable, and promote equity, diversity, and inclusion.
    I joined in company in April 2018 as chairman and CEO. And 
since my first day, I've always been impressed with the 
attention to detail and the emphasis on quality and safety. I 
am fully committed personally to ensuring that we continue to 
make quality products that are safe for babies and children, 
and I will continue to hold that as our highest priority above 
everything else.
    On behalf of myself and everyone at Mattel, I want to 
convey my deep and sincere condolences to parents and anyone 
affected by the heartbreaking tragedies we will discuss today. 
I'm a father of four children, and I can only imagine that 
there cannot be a more terrible loss than that of a child.
    Product quality and safety are at the heart of everything 
we do. Today Mattel maintains a department of approximately 450 
professionals focused on product safety and quality. Our 
internal experts oversee safety assessments and product 
development and manufacturing, adherence to Federal 
requirements and other standards, communication with the CPSC, 
and monitoring of safety incidents reported to us about our 
products.
    Equally important, we never stop improving our safety 
policies and practices and establishing new ones. Over the last 
year and a half, we made significant progress to strengthen our 
capabilities and have added respected leaders in quality safety 
and compliance, created the Medical and Scientific Safety 
Council, and launched the Safe Start education campaign for 
parents and caregivers.
    My colleague, Chuck Scothon, is here with me today. Chuck 
is a 30-year industry veteran, two decades of that with Fisher-
Price. He's one of the most experienced leaders in the toy 
industry, working on products for babies, toddlers, and 
preschoolers. Chuck will provide you with more of the detail 
surrounding the development of the Rock 'n Play and our 
decision to recall it, as well as our decision to recall the 
two gliders last week.
    Thank you for the opportunity to speak with you about 
Mattel's and Fisher-Price's extensive efforts to promote 
consumer product safety. I am happy to answer your questions.
    Chairwoman Maloney. The gentleman yields back.
    Thank you.
    Mr. Scothon, you are from recognized for your testimony.

 STATEMENT OF CHUCK SCOTHON, SENIOR VICE PRESIDENT AND GENERAL 
 MANAGER OF FISHER PRICE, GLOBAL HEAD OF INFANT AND PRESCHOOL, 
                          MATTEL INC.

    Mr. Scothon. Chairwoman Maloney, Ranking Member Comer, and 
members of the committee, I want to thank you for the 
opportunity to be here today to discuss Mattel and Fisher-
Price's consumer product safety efforts.
    At the outset I echo Mr. Kreiz's comments and convey my 
deepest condolences to families who have faced the terrible 
loss of a child. I also share Mr. Kreiz's view about the 
foundational importance of trust in Fisher-Price and the safety 
of our products. I have placed my trust in Fisher-Price 
personally. Fisher-Price played a key role in my daughter's 
childhood. And until the Rock 'n Play recall, this item was the 
gift that I gave to friends and expecting parents. The Rock 'n 
Play was also used extensively by Fisher-Price employees and 
their families.
    I assure you that everyone at Fisher-Price believes that 
every product we offer is safe and we do not and would never 
sell any product about which we thought otherwise. As a trusted 
partner to parents, we recognize that one of the most important 
parts of a baby's development is sleep. Newborns can sleep as 
much as 18 hours a day, while infants will normally sleep 12 to 
15 hours each day in that first year. Recognizing that a baby 
can fall asleep almost anywhere, it is why there are products 
designed specifically for overnight, unsupervised sleep. The 
difference between products intended for sleep and those that 
are not is an important distinction and relates to the products 
that we're discussing today.
    The Rock 'n Play was designed, marketed, and sold as a 
product intended for sleep. When introduced, it met the CPSC 
and consensus standards applicable to bassinets. Beyond meeting 
those standards, Fisher-Price conducted extensive research and 
analysis to assess the Rock 'n Play safety prior to the 
introduction including consulting with a medical doctor with 
expertise in biomechanics, evaluating many different aspects in 
our extensive testing in our laboratories, and conducting in-
home tests with families in the communities around our 
headquarters in Buffalo, New York.
    After the product launch, Fisher-Price regularly examined 
and analyzed any safety incident that was reported and 
regularly shared the reports of fatalities and serious incident 
with the CPSC for its own analysis. We asked two top doctors to 
evaluate the safety of the product specifically related to 
observing the breathing of an infant sleeping in an incline in 
the product. These doctors confirmed the Rock 'n Play Sleeper 
was safe when used in accordance with the warnings and 
instructions.
    In 2018, we had extensive discussions with the CPSC about 
the Rock 'n Play and asked one of the top engineering firms to 
assess independently whether infants were at risk of rolling 
over when using the product. We are confident that all of our 
products are safe when used as intended in accordance with the 
warnings and instructions. At the same time we take into 
account reports of injuries that are associated with other 
patterns of use.
    In light of the risks of accidents in the use of inclined 
sleepers, the safety restraints were not used, we decided two 
years ago to recall the Rock 'n Play voluntarily as the best 
way to reduce this risk.
    Recently we considered a similar situation with the 4-in-1 
Rock 'n Glide Soother. Although this is not a sleeping product, 
the data indicated a risk of accidents if the safety restraints 
were not used or children were left unsupervised. Based on 
this, we decided to recall the glider which we announced last 
Friday.
    We also recalled the 2-in-1 Soothe 'n Play Glider, even 
though there are no reported fatalities associated with this 
product, because it is similar to the 4-in-1 Glider. 
Importantly, with these two actions, we no longer make any 
products in either the inclined sleep category or the glider 
category. And we have no intention of doing so in the future.
    I look forward to providing additional information about 
Fisher-Price's commitment to the safety of our products. Thank 
you, and I would be happy to answer your questions.
    Chairwoman Maloney. The gentleman yields back.
    Thank you, and I now recognize myself for five minutes for 
questions.
    Mr. Kreiz, the report that the committee released today is 
based on interviews and internal documents from your company, 
Mattel. And these internal sources are damning. They show 
Mattel did not do any independent research as to the safety to 
see if Rock 'n Play was safe for sleeping before starting to 
sell it in 2009.
    They show that Mattel did not consult a single licensed 
pediatrician to make sure that the product was safe. And they 
show that Rock 'n Play, after it came to market, they ignored, 
Mattel ignored, a pediatrician's warning in writing and brushed 
off reports from mothers who had lost their children, that 
babies had stopped breathing, and even died from the product. 
They were warned from foreign countries that had taken it off 
the market.
    And the documents show that after the Consumer Product 
Safety Commission raised concerns with Mattel in 2018, your 
company fought back for nearly a year, even though you knew at 
least 14 infants had died in your product, 14 babies lost.
    This is a national scandal. It is breathtakingly 
irresponsible. It is corporate conduct that cannot be tolerated 
and has to change in the future.
    Mr. Kreiz, on behalf of Mattel, will you accept 
responsibility for this tragedy and apologize to the dozens of 
families whose children died using your product?
    Mr. Kreiz. Well, let me first say that our hearts go out to 
every family who suffered a loss. The Rock 'n Play Sleeper was 
safe when used in accordance with its instructions and safety 
warnings. The sleeper was designed and developed following 
extensive research, medical advice, safety analysis, and more 
than a year of testing and reviews. The product met or exceeded 
all applicable regulatory standards. As recent as 2017, the 
CPSC proposed the ASTM standards for 30 degree sleeper as a 
Federal law.
    After the product launched, different independent medical 
and other expert analyses verified that it was safe when used 
in accordance with the instructions and warnings. Two studies 
confirmed that the Rock 'n Play Sleeper was as safe or safer 
than other sleep environment such as cribs and bassinets, and 
one of these studies found that the product had----
    Chairwoman Maloney. Reclaiming my time, reclaiming my time, 
the bottom line is 50 children, infants, died, 50. You did not 
conduct any studies. You didn't even--you didn't even talk to a 
licensed pediatrician. You didn't even talk to the medical 
profession. You didn't do anything but pump it out there and 
sell it, and your actions weren't just irresponsible. I believe 
they were motivated by the company's bottom line.
    I'd like to put a chart up for the internal 2013 Fisher-
Price presentation, showing revenue from the Rock 'n Play from 
2009 to 2012 and a forecast of 2013 revenue.
    Can we put this up, the revenue projections? Well, we're 
seeming to have technical problems.
    In 2010, Rock 'n Play generated over $5 million in revenue. 
Just three years later it was projected to generate over $26 
million, an increase of more than 500 percent.
    Mr. Kreiz, how much revenue did Mattel or Fisher-Price 
receive in total from Rock 'n Play from 2009 to 2019? Can you 
give us a number?
    Mr. Kreiz. I don't have the number in front of me but I can 
assure you----
    Chairwoman Maloney. OK. Reclaiming my time.
    Why don't you look it up? Our documents confirm that Mattel 
received $200 million from selling this dangerous product, 50--
over 50 documented lives lost. Your company knew about these 
deaths at Rock 'n Play in 2012, our documents show. And, yes or 
no, if the public had learned about these deaths starting in 
2012, would that have negatively impacted your company's 
revenue?
    We just heard from two mothers who lost their children, and 
they definitely would not have bought this product if they had 
known about these deaths.
    Well, he seems to have lost----
    Mr. Kreiz. I'm sorry.
    Chairwoman Maloney.--his voice.
    Mr. Kreiz. I thought you were----
    Chairwoman Maloney. Mattel clearly had a financial 
incentive to keep this information under wraps, even if it 
meant dozens more babies might be injured or die. That is why 
the decision to disclose safety information to the public 
should not be in the hands of corporations. It should not.
    The government should be able to release this information. 
We intend to change the law to allow that to happen. We must 
strengthen the Consumer Product Safety Act to give the CPSC the 
tools it needs to protect consumers, to protect consumers over 
profits. Thank you.
    I now recognize Mr. Cloud for five minutes.
    Mr. Cloud.
    Mr. Cloud. Thank you, Chairwoman.
    Mr. Kreiz, you became CEO in April 2018 and the voluntary 
recall was just a year later in 2019. Is that correct?
    Mr. Kreiz. Correct.
    Mr. Cloud. And were you involved in the decision to recall 
the Rock 'n Play or aware of it before it was announced?
    Mr. Kreiz. Yes, I was.
    Mr. Cloud. What went into the decision to recall?
    Mr. Kreiz. By the time we decided to recall the product, it 
became apparent that there's a pattern of use were based on the 
data that we collected that the product was not used in 
accordance with the instructions and warnings. And although the 
accidents were rare and well below the national SIDS rate, we 
recalled the product in the best interest of the consumers and 
to avoid further additional incidents.
    Mr. Cloud. OK. Previously, though, there had been pushback 
from authorities in Canada, the UK, and Australia. Do you think 
aggressively in retrospect aggressively marketing the Rock 'n 
Play as a sleeper in the U.S. was the right thing to do?
    Mr. Kreiz. We consult with all regulators in all 
jurisdictions and meet or exceed every--every standard. In the 
U.S. the product was approved. We met or, rather, we met all 
standards, all applicable standards. And with that, we did 
everything we believe in the best interest of consumers. We 
will never, never compromise the safety of consumers above 
profits or any financial consideration.
    Consumer safety and product quality is by far the highest 
priority for Mattel, and we're very committed to that. This is 
our--this is part of our DNA and we will continue to withhold 
that, you know, for hopefully for the many, many next 
generations.
    Mr. Cloud. You mentioned a lot of research went into the 
product development and consulting with physicians. You know, 
as far as our investigation, the understanding is, is that you 
consulted one physician who later lost his license, who made 
tremendously outrageous claims about safety and pediatricians 
recommend babies to sleep in a car seat overnight for months or 
even a year. I mean, Did that not raise any red flags? Do we 
have wrong information here? Why was only this one physician 
who seemed kind of outside of the box of mainstream medical 
thought the only one advising?
    Mr. Kreiz. We did consult a medical doctor with expertise 
in biomechanics and that who was board-certified in family 
medicine which included pediatrics. At the time when we 
consulted with him, he gave us good advice. And we relied on 
his position. Later what you described came to light, and it's 
fair to say we would not use him if we knew of these findings.
    That said, we did use and leverage our extensive safety 
capabilities. As I mentioned in my opening remarks, we employ 
450 employees that are dedicated to product safety. We operate 
eight accredited state-of-the-art labs to evaluate our toys for 
safety, quality, and durability. And we have our own Play Lab 
where we observe interaction with our product.
    So we believe that the product was safe when used in 
accordance with the instruction. Later studies also confirmed 
that the product was safe. These studies were conducted in 
2016, 2018, and as recent as last year after we recalled the 
product.
    Mr. Cloud. You mentioned they're safe. But, of course, we 
have, you know, many families who would disagree obviously with 
the tragic loss of life. What is Mattel, Fisher-Price learning 
from this experience? What are we going to do better? And then 
what as policymakers do we need to do to ensure that this kind 
of thing does not happen?
    Mr. Kreiz. Yes, we share the pain of every family that 
suffered the loss. Unfortunately, injuries are often associated 
with other risk factors and we are familiar with the SIDS 
phenomenon which is the nightmare of every new parents. This is 
a terrible tragedy that happens often and, you know, where 
babies died in an unexplained manner.
    Our jobs is to continue to prioritize safety, to work in 
collaboration with the CPSC, to share every data and every 
piece of information that we have, and to understand what can 
we do in our product to design better safety mechanism and 
continue to collaborate with parents and emphasize the 
importance of following instructions.
    I can tell you that at Mattel we recently formed the 
Medical and Scientific Safety Council that is comprised of 
renowned pediatricians, five pediatricians. This council meets 
regularly with our internal safety teams to provide 
professional opinions, different advice, and recommendation to 
Fisher-Price about the safe and proper use of our products.
    So we are learning as well. We are evolving our practices. 
We will never stop improving what we can do and--and, you know, 
prioritize and make sure that our product are held at the 
highest standard in terms of safety and quality.
    Mr. Cloud. Thank you.
    I have more questions, but I think I'm out of time.
    Chairwoman Maloney. The gentleman yields back.
    The gentlelady from the District of Columbia, Ms. Eleanor 
Holmes Norton, is now recognized for five minutes.
    Ms. Norton. Thank you, Madam Chair, for this important 
hearing.
    The notion that one cannot disclose danger of a product of 
this kind without the consent of the manufacturer is something 
the committee needs to look into. We have to be fair to both 
parties. That is not fair to both parties.
    We know that mistakes were made from the beginning, that 
Mattel did not consult a pediatrician, when it was designing 
Rock 'n Play, to confirm that it was safe. Even more alarming, 
when a pediatrician did reach out to the company to raise 
alarms that Rock 'n Play was not safe for infant sleep, 
apparently nothing was done.
    In February 2013, our information is that a pediatrician, 
Dr. Benaroch, contacted Fisher-Price to raise concerns about 
the numerous ways that Rock 'n Play design conflicted with, of 
all places, the American Academy of Pediatrics' guidelines for 
safe infant sleep.
    And this was after the company had already received a 
report from a parent, perhaps like the parents we heard from 
this morning, whose baby had stopped breathing while in the 
Rock 'n Play. Company documents show that Mattel ignored Dr. 
Benaroch's warning. In fact, Dr. Benaroch requested to speak to 
Mattel's senior director of product safety. But the company 
declined to make her available.
    Now we have an email responding to Dr. Benaroch. A Fisher-
Price employer wrote this. We encourage consumers who have 
questions or concerns about providing safe sleep environment 
for their babies to discuss these issues with their doctors and 
pediatricians.
    Dr. Scothon, a Fisher-Price employee told the committee 
that it was highly unusual for a pediatrician to contact the 
company, warning that a product was unsafe. Did Fisher-Price 
have any--make any changes to the design of Rock 'n Play in 
response to Dr. Benaroch's warning?
    Mr. Scothon. Thank you for the question.
    Looking at that instance, we were focused on ensuring that 
the product adhered to the policies or the--excuse me the--
standards of the bassinet standard. We certainly took it into 
account. I believe people engaged with Dr. Benaroch----
    Ms. Norton. But you didn't make any changes.
    Mr. Scothon. We did make any deliberate changes to the 
product at that time because it didn't--OK.
    Ms. Norton. Thank you. My time is limited.
    Did Fisher-Price issue any sort of warning to the public 
based on Dr. Benaroch's concerns?
    Mr. Scothon. We did not, again, because it adhered to the 
bassinet standard.
    Ms. Norton. Dr. Kreiz, let me turn to you.
    Mattel and Fisher-Price encouraged consumers to consult 
their pediatricians--I just read--I just issued--I just 
indicated that--about providing a safe sleeping environment for 
their babies. Isn't that right?
    Mr. Kreiz. Correct.
    Ms. Norton. At the same time, the company was ignoring a 
pediatrician who was raising concerns about Rock 'n Play, that 
it did not provide a safe sleep environment for babies. In 
retrospect, let's just look back for a moment. Do you think 
Mattel took Dr. Benaroch's warning seriously enough?
    Mr. Kreiz. I'm aware of that interaction and I know we took 
his recommendation and considered those seriously. That said, 
as my colleague just mentioned, we did not see an issue with 
what he raised because the product did meet the bassinet 
standard. And while we did consider his observation, we did not 
agree with them.
    Ms. Norton. Mattel's decision not to take Dr. Benaroch's 
warning seriously seems to me to be inexcusable. It also 
demonstrates why it is important that we repeal section 6(b) of 
the Consumer Product Safety Act and stop letting corporations 
hide behind the law to hide deaths associated with their 
products from the public.
    Dr. Benaroch knew in 2013 the Rock 'n Play was dangerous. 
At that time Mattel also knew that infants had died in Rock 'n 
Play. Perhaps if the public knew as well, Dr. Benaroch's 
warning would not have fallen on deaf ears.
    Let me thank you, again, Madam Chair, for this very 
important hearing.
    And I yield back.
    Chairwoman Maloney. The gentlelady yields back.
    I now recognize the gentlewoman from North Carolina, Ms. 
Foxx.
    You are now recognized for five minutes, Ms. Foxx.
    Ms. Foxx. Thank you, Madam Chairwoman.
    And I thank our witnesses for being with us today.
    Mr. Scothon, beyond consultation for safety, did Fisher-
Price conduct any research about changing the marketing of the 
product from a sleeper to a soother might affect consumer 
interest in the product?
    Mr. Scothon. Yes, there was a study done as we were 
evaluating the situation. There was a study done. I can't 
remember the year that it was done but yes.
    Ms. Foxx. OK. What's the difference between a sleeper and a 
soother besides marketing?
    Mr. Scothon. So, again, what that speaks to is very much 
what I said in my opening statement which is there's products 
that are designed for long-term overnight sleep where a child 
may be left unattended or the parent may be sleeping and then 
there are other products which would be intended for a place 
where you can place a child. They may fall asleep or nap or 
fall asleep quickly, but they're usually right next to the 
parent or very close to the parent. So the distinction between 
a soother and a sleeper would be the application and the use.
    Given that we had designed the Rock 'n Play Sleeper for 
overnight sleep, we're designing it to adhere to the bassinets 
standard, that was really our focus as we were trying to look 
at designing the product to the standard that met the bassinet 
standard.
    Ms. Foxx. Thank you.
    What role does marketing play in how a consumer uses the 
product?
    Mr. Scothon. Well, the marketing of a product is really 
intended to focus on for parents the intended use. So, again, 
there are places where, when you're parents, as a young parent, 
you may be putting your child down for a moment in time, those 
are things that you would look at such, they're what I'll call 
short-term or parking places. There are other long-term sleep, 
and we really talk about the benefits of both because 
ultimately parenting is a challenging time. We are designing 
the safest places to really help parents during those early 
months when babies are sleeping so much, and we really focus on 
making sure that we design those products in awareness that 
children may fall asleep everywhere but designing them with the 
right intent for either use.
    Ms. Foxx. Thank you.
    Does Fisher-Price currently have a soother on the market?
    Mr. Scothon. I'm trying to remember specifically. We do not 
have--the gliders, we may be using the name ``soothe'' here and 
there but, no. There--well, soothers are in many different 
places but the soother is the gliders is what we've been 
calling them to date and we just removed those from the market.
    Ms. Foxx. How does the soother--well, you just said the 
soother currently on the market but the one you just removed 
from the market, how did it differ from the Rock 'n Play 
Sleeper?
    Mr. Scothon. Certainly. So when you look at those two 
products, both the 4-in-1 Glider, and as well as the 2-in-1 
Glider, both gliders have been removed from the marketplace. 
Those have--the Rock 'n Play had a hard back or flat surface to 
it, very similar to that. Was really designed based on the 
bassinet standard. The Rock 'n Play was at an angle 
approximately 23 to 26 degrees.
    The glider is more of a soft shell and that will move front 
to back or toe to head or side to side, depending on the 
orientation of the product. So it allows the infant to rest and 
sit next to mom typically when she's in, you know, doing one of 
the things that a parent is doing and they need some free hands 
but it keeps and entertains the babe by rocking them and 
soothing them.
    Ms. Foxx. Have there been deaths associated with any 
Fisher-Price soother or similar products currently on the 
market?
    Mr. Scothon. With regard to the glider or soother, again, 
we've removed those as referenced by the four fatalities that 
we referred to as the recall and that soother would be the ones 
that, yes, so no.
    Ms. Foxx. Just four? Is that--do you know of any other 
soothers where there have been deaths?
    Mr. Scothon. Well, the question there would be the 
definition or the term ``soother.'' Again, we focus on 
products--we make many different platforms or products, as we 
refer to them. So there are gliders. There are swings. There 
are other incidents like any consumer product category where we 
do--we are aware of incident or fatalities related to other 
products. We have turned all of that and communicate that 
within 24 hours to the CPSC in all of that information.
    We report both weekly to the CPSC, as well as within 24 
hours of learning of an incident. So we are aware of other 
incidents related to other product categories that we make, as 
we always are. And the two that right now we have recalled and 
removed from the market would be the glider and the Rock 'n 
Play Sleeper.
    Ms. Foxx. Thank you, Madam Chairman.
    I yield back.
    Chairwoman Maloney. The gentlelady yields back.
    And the gentleman from Massachusetts, Mr. Lynch, is 
recognized for five minutes.
    Mr. Lynch. Thank you, Madam Chair.
    I'd like to ask some questions about the safety standards 
surrounding this product. You know, a July 2020 Consumer 
Reports found that 96 percent of the American people believe 
that products that they buy for their home are governed by 
mandatory safety standards that are set by the government. But 
as we know on this committee, for the vast majority of products 
on the market, that is simply not true. Most products including 
the Rock 'n Play are only governed by voluntary standards set 
by an organization called ASTM International, the formerly the 
American Standard--excuse me--the American Society for Testing 
and Materials.
    Mr. Scothon, I understand the Rock 'n Play, the Rock 'n 
Glide, and the Soothe 'n Play Glider were all subject to 
voluntary standards set by ASTM international. Is that right?
    Mr. Scothon. They were. Yes, they were set by the ASTM 
standards as well the CPSC guidelines where appropriate.
    Mr. Lynch. Right. And ASTM is comprised of--and again, I 
hate to use acronyms, but the American Society for Testing 
Material International is comprised of a bunch of different 
groups, and individuals, including product manufacturers, like 
yourselves, testing labs, some consumer advocates and others. 
But what many consumers don't know is that through the ASTM 
committees, manufacturers like yourself can influence the 
voluntary standards that are set for their own products. Is 
that correct?
    Mr. Scothon. We are involved in those standards. It is a 
consensus-based organization, which takes into account all of 
the different expertise from all of the different individuals. 
So, the consensus is really designed to ensure that no single 
company or group can influence.
    Mr. Lynch. Right. But Mattel employees, including the 
people who helped design the Rock 'n Play, actually sit on the 
ASTM committees that design standards for infant products, 
don't they?
    Mr. Scothon. They are involved in the ASTM standard setting 
process, correct.
    Mr. Lynch. Right. And when they participate in ASTM's work 
to set safety standards, they are doing so as representatives 
of the company, and not as independent individuals. Is that 
correct?
    Mr. Scothon. Well, they are representatives of the company, 
but, typically, their roles are to facilitate the process, to 
focus on getting the groups together, to aggregating and 
putting all the information together, and coming back with 
consensus points of view. Again, as a consensus process, the 
role that is played is a bit more around the process. But, 
again, the focus is always around making the safest product, to 
delivering and being on the safest standards to make sure that 
we keep the consumer safe.
    Mr. Lynch. But you're a business, right? I mean, look, 
let's take the average price of one of these Rock 'n Plays. I 
think it retailed anywhere between $50 and $80 apiece. Let's 
take the average $65. So, you multiply that by the 4.7 million 
units sold, and that's what we got on the recall numbers. 4.7 
million units, $65, that's over $300 million. So, you have an 
employee sitting on the standards committee, and there's a 
tremendous financial incentive for that individual to work on 
your behalf in setting the voluntary standards. Isn't that 
correct?
    Mr. Scothon. Well, I would differ slightly, but, yes, I 
understand the view. But what I would say is this, the safety 
teams, these individuals that are on our 450 safety and quality 
team members, do not actually report into myself or the 
business. We keep those separate. So, while I'm aware of what 
they are doing, we try to keep them as independent as possible 
to ensure that they are looking through the best ones.
    Mr. Lynch. Come on. Wouldn't it be easier, wouldn't it be 
better, wouldn't it be more credible if we had, you know, just 
objective--we had people from companies that were not, you 
know, incentivized to support a standard that made a lot of 
money for the companies they worked for? I mean, don't you see 
a conflict there? I mean, I do. It is glaring to me that the 
people who designed the Rock 'n Play are sitting on a board to 
establish the voluntary standards for safety for these 
families, for these kids.
    Mr. Scothon. I understand those individuals, obviously, 
come with a significant amount of information and awareness, 
both background and current. The ASTM, as I understand it, is 
open to many people contributing. That's why the CPSC is there, 
that's why child advocacy groups are there, and there is a 
consensus standard.
    Mr. Lynch. But you also have testing firms that also stand 
to make a lot of money if they have a good relationship with 
you, the manufacturer. Isn't that correct?
    Mr. Scothon. Again, I'm not close to the relationships, but 
I understand the point.
    Mr. Lynch. Yes. OK.
    Madam Chair, my time has expired. I yield back.
    Chairwoman Maloney. The gentleman yields back. The 
gentleman from Wisconsin, Mr. Grothman, is recognized for five 
minutes. Mr. Grothman.
    Mr. Grothman. Thank you much. I just do want to briefly 
followup on what Congressman Cloud said. I really wish this 
committee would have a hearing on the COVID. We haven't had one 
in a long time. I think the failure to push Ivermectin, failure 
to push vitamin D, has resulted in tens of thousands of excess 
deaths. I'm just begging the chairman to hold a hearing on 
that.
    Now, with regard to the witnesses we have here, could one 
of you explain to me how the children died in this? Were they 
suffocated? Just give any a general--when I look at it, how did 
the children die?
    Mr. Scothon. Congressman, I will take that to start. Mr. 
Kreiz can add as he may. But when you look at all of the 
incident data--and this is what we started back in 2010 up and 
through, even 2000 at the time of recall--we were consistently 
looking at every individual accident, both individually and 
collectively. There are many contributing factors to this. And 
throughout that process----
    Mr. Grothman. All right. Did the child--how did they die? 
Did they tip over? Did they suffocate? Was it their head went 
forward? What happened?
    Mr. Scothon. Again, in many instances we continue to 
investigate and we're investigating those. There was no single 
cause that we could find. There were theories around, questions 
around things, like the rate of incline. And we did research 
around that, to determine the breathing and whether there was 
any impact on that, which we did not see. There were questions 
of rollover as related to the product. We did studies with 
exponent on that. A world-renowned firm who could not show us 
the rollover incident when used properly. So as we continue to 
go through it, there was no pattern and the data did not 
subject a product attribution issue. There were----
    Mr. Grothman. Even used improperly. What could I do to use 
it improperly to cause a child's death?
    Mr. Scothon. Well, when we speak to that, the intent is to 
suggest it, to make sure that you use the restraint systems. 
The restraint systems are intended to ensure that a child would 
not roll over. It is both on the product itself and----
    Mr. Grothman. So the child that passed away, did they roll 
over?
    Mr. Scothon. Again, we don't have data that suggested 
rollover. There was concerns on that. The data typically would 
show us, you know, the difference between statements and 
medical examiner reports. We could not find incidents where a 
child rolled over when using the restraint.
    Mr. Grothman. Well, not getting far here.
    Some of the notes we have here indicate that most of the 
children who died, died early on, you know, during the 10-year 
period or whatever it was on the market. Is that accurate?
    Mr. Scothon. It's hard to specifically state a window. What 
I would--look----
    Mr. Grothman. You don't know when the children died even? 
You must know that.
    Mr. Scothon. With regard to, you know, the incidents 
themselves, I'm sorry, sir, I'm--what----
    Mr. Grothman. You don't know that children primarily died 
in 1909, 1910, or 1918, 1990. You don't know that?
    Mr. Scothon. No. I'm sorry. The pattern--and I 
misunderstood the question, so I apologize for that. The 
incident rate up until approximately February, we were aware of 
approximately 14 in 2018. We were aware of 14 incidents through 
2018. That is when we filed the 15(b) report with the CPSC. 
Throughout the course of those previous years, we were 
notifying the CPSC upon learning of any incident. Immediately 
we--go ahead.
    Mr. Grothman. How many children have died totally in this 
toy or whatever? How many total died?
    Mr. Scothon. Today, we are aware of approximately, I 
believe the number is currently 97. Although, those numbers 
change as we are also finding that some of the products that 
had been attributed to the Rock 'n Play were not Fisher-Price 
or incline sleep. So the data, one of the things, sir, and it 
is why it is making it more difficult is typically when we find 
an incident report, the data is very inconsistent. It is 
sometimes inaccurate or incorrect. That is why we investigate 
things individually. And that is what----
    Mr. Grothman. Sorry. They only give us five minutes here. 
Is 97, is that for all over the world or just the United 
States?
    Mr. Scothon. I believe that is a U.S. number.
    Mr. Grothman. OK. So it could be significantly more. How 
many other countries was this marketed in?
    Mr. Scothon. No.
    Mr. Scothon. I would have to get back to you specifically 
on that. And by the way, I believe that actually is a worldwide 
number. I apologize for the Zoom thing. I apologize. But it was 
a worldwide number.
    Mr. Grothman. OK. Finally it says here, in Canada banned 
this in 2011. Do you have any other toys out there right now 
that Canada has banned, but you're still selling in the U.S.?
    Mr. Scothon. No. I don't believe so. No.
    Mr. Grothman. OK. It seems a little unusual. So it was 
banned in Australia, or came down on it in 2010, Canada in 
2011, and for another 9 to 10 years, you just kept going. Is 
that unusual? It was banned in one country, but you keep 
selling it here?
    Mr. Scothon. Our focus is on making sure that the products 
adhere to the regulatory standards of each regulation or 
country. So where this did, you know, in the U.S. it was 
consistent with the ASTM bassinet standards, so we sold it 
here. There were other markets where they did not have a 
bassinet standard that met that, and we adhered to those 
policies as well. So we always followed the local market 
standards as we did here.
    Mr. Grothman. OK.
    Thank you for the additional time.
    Chairwoman Maloney. The gentleman yields back. And I did 
want to respond to his statement that the committee has not had 
enough hearings on COVID. We have a subcommittee that is 
dedicated totally to looking at the COVID crisis. We've had Dr. 
Fauci twice before this committee. And at our last hearing, 
which was roughly 2-1/2 weeks ago, we looked at a $260 
million--$600 million contract to a company that was not able 
to produce a single shot in the arm yet to help vaccinate 
people in our country because of management problems. But I 
appreciate his concern.
    I now call upon the gentleman from the great state of 
Virginia, Mr. Connolly. You are now recognized for five 
minutes.
    Mr. Connolly. I thank the chairwoman from the great state 
of New York.
    Mr. Kreiz and Mr. Scothon, do you have children?
    Mr. Scothon. I do.
    Mr. Kreiz. I do. I have four children.
    Mr. Connolly. Yes. So, you can certainly understand the 
incredible pain of the loss of a child, what a tragedy, even 
one child being lost, perhaps because of your product. The pain 
of a parent in suffering that loss. Certainly you can relate to 
that?
    Mr. Kreiz. Absolutely. I can tell you I can't even imagine 
the terrible loss of a child. This is----
    Mr. Connolly. Yes. Well, according to Mr. Scothon, we've 
lost at least 97, and that's 97 sets of parents, and 
grandparents, and siblings who no longer have a loved one. They 
relied on you, and maybe, as Mr. Lynch suggests, they believed 
falsely that a product wouldn't come to market without it 
having been certified as safe by the Consumer Products Safety 
Commission, which, of course, actually under the law, doesn't 
really do that. It can look at a product after it comes on the 
market, but not before it comes on the market. That's really 
your job.
    Mr. Kreiz you talked about having 450 product safety 
personnel. You talked about a committee, a review committee. 
You talked about consulting parents and other professionals. 
You talked about a professional pilot test playground for 
products. And yet, with all of that, 97 children died, and you, 
ultimately, decided to recall a product. What went wrong with 
your process? Because clearly something went wrong.
    Mr. Kreiz. Well, as I said in my opening remarks along the 
different conversations today, we believe the Sleeper, the Rock 
'n Play Sleeper was safe when used in accordance with the 
instructions and safety warnings. At no point, we had any 
reason to believe----
    Mr. Connolly. Mr. Kreiz, excuse me because of time. Excuse 
me for interrupting. OK. We'll stipulate you say you believed 
it was safe. But there were warning signs. Our investigation 
shows that one of your own product safety executives urged more 
study because he thought there were inherent dangers with the 
product. And as we just heard, in 2011, Canada banned this 
product. How many warning signs were required before you 
decide, you know what, the better side of safety really 
prevails, and we're going to, you know, we're going to pull 
back that product so that there aren't more losses of lives.
    Mr. Kreiz. We shared every information with the CPSC beyond 
the requirements of the Consumer Product Safety Act. We 
conducted multiple studies and surveys. I referred earlier to 
our study that was done by two doctors in 2016 that confirmed 
that the Rock 'n Play incline was safe at the 30-degree angle 
when used with instructions.
    Mr. Connolly. Is it your testimony right now that it is--
OK. The logical extension of what you're saying is that product 
is still safe, but you recalled it anyhow. Why did you recall 
it if it is still safe? Because you had all of these reviews 
that said it was safe if used properly.
    Mr. Kreiz. The reason we recalled it is because we saw a 
pattern of use in the data that came to us. And as I mentioned 
before, the incident were below the SIDS rate. We decided to 
recall it to avoid the risk of additional incidents that could 
involve use of the product in accordance with instructions.
    Mr. Connolly. Well, at the very least, don't you think you 
could be charged with the fact that were you awfully late to 
the game in making that decision? I mean, is there an 
acceptable death quota before you decide to remove a product 
because of loss of life? We're talking babies here.
    Mr. Kreiz. Even one loss of life is too many.
    Mr. Connolly. Right. So why didn't you pause and recall a 
product then? And if you wanted to wait, why didn't you at 
least see the warning flag from Canada that clearly disagreed 
with your assessment that it was an inherently safe product if 
used properly.
    Mr. Kreiz. The reason is because every step along the way 
all the study, and research, and information that we gathered 
did not show that the product was unsafe. And we continued to 
investigate every incident and share it with the CPSC.
    Mr. Connolly. Madam Chairwoman, my time is up. I would 
simply observe, I think that's an argument that is overtaken by 
events when we've had the loss of--an admitted loss of 97 
children, and their grieving families. This product should have 
been recalled long before it was by this company. And the 
argument that it is safe, if used properly, clearly is belied 
by the facts on the ground, tragic facts on the ground.
    I yield back.
    Chairwoman Maloney. I thank the gentleman for raising that 
concern and really responding to the witnesses today. And I'd 
like to also join you in responding to some of their statements 
today. Fisher-Price claims that its inclined products are safe 
if they are not used for overnight sleep, as instructed, and 
blames parents for product misuse. 97 deaths because of, quote, 
``product misuse.'' But the company marketed the Glide Soother, 
and Rock 'n Glide Soother, an inclined product, that was just 
recalled because of four infant deaths expressly for sleep. So, 
the company can't have it both ways.
    And I'd now like to recognize the gentleman from 
Pennsylvania, Mr. Keller, you're recognized for five minutes.
    Mr. Keller. Thank you, Madam Chair. The role of this 
committee is to examine pertinent issues facing the American 
people, certainly, the safety of America's infants is paramount 
importance to all of us. However, this committee has done 
nothing to address the issues that will also impact all 
Americans, including these children, such as a growing crisis 
at our southern border, rampant inflation, and continued labor 
shortages due to the administration's outrageous spending, and 
failure to reopen the American economy, and get Americans back 
to work.
    While the issue of infant safety is an important one, I 
wonder why the committee is using its power to consider decade-
old litigation, already addressed by the court system, instead 
of focusing its efforts on the many crises affecting the 
American people today.
    That being said, parents should not have to second-guess 
the safety of their childcare products, and the death of any 
child at the hands of faulty design is unacceptable and it is a 
tragedy.
    In its October 2009 release, Mattel advertised that the 
Rock 'n Play, a baby can sleep at a comfortable incline all 
night long. However, healthcare professionals were not 
consulted regarding the design, nor ratified the benefits 
advertised for the product. In fact, the American Academy of 
Pediatrics advised a firm crib mattress covered by a sheet is 
the recommended sleeping surface.
    So Mr. Scothon, as head of the Infant & Preschool division 
at Fisher-Price, do you think products that claim to have such 
revolutionary health benefits, especially concerning infants, 
should be reviewed by healthcare professionals before being put 
out into the market?
    Mr. Scothon. Sir, I believe that we will do, and will 
continue to do, everything we can to keep things safe. As a 
matter of fact, we've just recently created the MSSC, which is 
an advisory panel that we have brought on to ensure that we 
have additional consultation as it relates to new products.
    So, we are committed to both safe products, constant 
evaluation of that data through our safety professionals, our 
safety group, as well as our product design experience. And we 
are committed, where necessary and appropriate, to also get 
that external support, those eyes to help us continue to 
improve on the process, because we ultimately believe that our 
job and our goal is always to make the safest products for 
families.
    We are committed to doing that, it is what we have done for 
90 years, and it is what we are committed to doing for the 
future.
    Mr. Keller. So you've done that, and that's a mechanism 
that you have put in place to ensure the products are reviewed 
by medical experts. So you will have medical experts on your 
panel?
    Mr. Scothon. Yes. What we refer to as the Mattel Scientific 
and Safety Committee. There are five pediatricians that will be 
involved in our safety review process looking at many products 
that are not, what I will call standards products, that we make 
that would be potentially unique. And they will be reviewing 
those products as part of our safety review process.
    Mr. Keller. Also from your perspective, is there anything 
Congress can be doing to work with Federal agencies to clarify 
the various rules associated with consumer safety of the 
products your company makes?
    Mr. Scothon. Look, I think that's a very important 
question. It's why we're here today, to talk about how to 
continue to evolve and improve the safety. Because ultimately, 
we, you, the CPSC, we all have the same intent, which is 
keeping consumers safe.
    I believe that, you know, I don't want to say specifically 
what can be done, but I would say we'd be more than willing to 
work with you to figure out how we can continue to improve 
those processes, just as this hearing is intended to do today.
    Mr. Keller. Thank you.
    I appreciate the opportunity to speak today, Madam Chair. 
And I yield back.
    Chairwoman Maloney. The gentleman yields back. And the 
gentleman from Illinois, Mr. Krishnamoorthi, is now recognized 
for five minutes.
    Mr. Krishnamoorthi. Thank you, Madam Chair.
    I think that the statement was made, Mr. Scothon, you said 
that essentially the Rock 'n Play comported with the bassinet 
standard. Didn't you?
    Mr. Scothon. That's correct. At the time of launch, it was 
part of the bassinet standard.
    Mr. Krishnamoorthi. And I'm looking at the CPSC website 
right now, and the final rule clearly states that the standard 
limits, the allowable angle to 10 degrees incline. So, your 
Rock 'n Play absolutely did not, did not comport with the 
bassinet final rule.
    Mr. Scothon, the Rock 'n Play is an incline sleeper. Isn't 
it?
    Mr. Scothon. Yes. It is an incline sleeper.
    Mr. Krishnamoorthi. And the baby would sleep at an incline, 
not flat on its back, correct?
    Mr. Scothon. It was at an incline, but the back of the seat 
was flat, not curved.
    Mr. Krishnamoorthi. But it was not horizontal flat, 
correct?
    Mr. Scothon. That's correct.
    Mr. Krishnamoorthi. OK. Good. And you said Rock 'n Play was 
introduced in 2009, correct?
    Mr. Scothon. That is correct.
    Mr. Krishnamoorthi. In 2005, four years before the Rock 'n 
Play was introduced, the American Academy of Pediatrics in 
guidelines on preventing SIDS, you probably can't see it, but 
basically, it says ``New guidelines on preventing SIDS,'' said 
``infants should be placed for sleep in a 'supine position' 
wholly on the back for every sleep. I didn't know what supine 
meant. I looked it up in a medical dictionary, it means, quote, 
``lying flat on your back, looking up.''
    So, it looks like you ignored the American Academy of 
Pediatrics' recommendation that basically babies sleep flat on 
their back as opposed to an incline.
    Now, let's go to 2010. Foreign authorities recognized 
similar problems. When you sought to sell the Rock 'n Play in 
Australia, the Australian authorities wrote back in an email in 
June 18, 2010, that the sleeper was at odds, your sleeper was 
at odds with widely accepted and promoted best practices that 
these types of products should not be used as an infant bedding 
alternative. You don't dispute they wrote you that in 2010, 
correct?
    Mr. Scothon. I do not dispute that. No.
    Mr. Krishnamoorthi. And in 2011, the U.K. Royal College of 
Midwives told you that, quote, ``It would not endorse the 
product as a sleeper because it would only be suitable for 
short periods of supervised wakefulness.''
    Then, that same year in 2011, the Canadian regulator sent 
you negative signals, too. They said the product could only be 
sold as a, quote-unquote, ``soothing seat,'' which, as you 
explained earlier in your testimony to Mrs. Foxx, is something 
that cannot be used a sleeper. And in 2011, the Rock 'n Play 
was withdrawn from the Canadian market as well as a sleeper, 
correct?
    Mr. Scothon. That's correct. Once again, we always adhere 
to----
    Mr. Krishnamoorthi. So again, now let's just go to the 
tape. So, in 2010, Australia rejects it as a sleeper; 2011, 
U.K. groups reject it as a sleeper; in 2011, Canadian 
regulators reject it as a sleeper. But you kept selling in the 
U.S.
    Now can you please bring up COR staff the 2018 
presentation, Fisher-Price presentation? OK, what we're looking 
at here is market research that you did in 2018. There's a 
little typo at the top, it should be 2018. And basically, it 
has feedback from moms on the right-hand side which we 
highlighted. Let me just point you to a few of them. Quote, 
``It's on an incline and I have read that babies should not 
sleep on an incline unattended. It is obviously very unsafe. 
Babies need a flat surface to sleep on. No incline!'' 
Exclamation point. The next one down. ``It is not approved as a 
safe sleeping surface.'' Sir, you did not stop selling the Rock 
'n Play in 2018, correct?
    Mr. Scothon. That's correct. We were in discussions----
    Mr. Krishnamoorthi. You, instead, kept selling it, despite 
what the moms were telling you. And you only recalled it on 
April 12, 2019, four days after the Consumer Reports published 
the deaths linked to your particular product.
    Now I know you've adopted a blame-the-parents defense. And 
it's just appalling what Mr. Kreiz keeps saying, that the 
parents are to blame for what happened here. Mr. Scothon, what 
bothers me especially is what caused you to stop selling the 
Rock 'n Play. It wasn't the warnings from the health experts, 
and the pediatricians in 2005. It wasn't the Australian 
Government and the Canadian Government that rejected your 
sleeper in 2010 and 2011. It wasn't the moms who complain about 
the safety of your sleeper in 2018. It wasn't even the deaths, 
the 97 deaths associated with your Rock 'n Play Sleeper. No, it 
wasn't any of that. Instead, what it was is Consumer Reports 
publishing a report about the deaths. You only acted because 
you got caught red-handed, knowingly selling a dangerous 
product. Sir, integrity is what you are when no one's looking. 
And this episode demonstrates a shocking, shocking lack of 
corporate integrity.
    I yield back.
    Chairwoman Maloney. The gentleman from Arizona, Mr. Biggs, 
is recognized for five minutes.
    Mr. Biggs. I thank the chair for allowing me to take my 
five minutes. I thank the witnesses for being here. And I 
appreciate this hearing today.
    I don't defend the company's actions in any way. And I also 
am concerned. Ninety-seven deaths of infants is something that 
really tugs at the heartstrings of every parent and 
grandparent.
    But I want to read to you a letter that I wrote to you, 
Madam Chair. It was written about 15 hours ago now. Dear 
chairwoman Maloney. Today, the House Committee on Oversight and 
Reform will hold a committee hearing for which committee 
members, and maybe not all committee members, certainly I felt 
this way, are woefully unprepared. If you have a serious 
expectation that committee members will be able to discuss the 
topic and learn from the witnesses, you should reschedule the 
hearing until a later date. Why? Because on Friday, May 28, 
2021, the committee gave notice of this hearing titled, 
``Sleeping Danger: The Rock 'n Play and Failures in Infant 
Product Safety.'' According to your published guidance, the 
committee ``launched an investigation into the safety and 
regulation of Fisher-Price's Rock 'n Play and other infant 
incline sleep products,'' closed quote, in August 2019. And the 
purpose of this hearing, as you stated in your guidance, is to, 
quote, ``examine findings from the committee's investigation,'' 
closed quote.
    Yet, when I wrote the letter about 12, 15 hours ago, I 
hadn't received the report from this committee. In fact, you 
said in your opening statement that you released it today. I 
received it at 5:40 a.m., Arizona time, which is where I am. 
That meant, it came out into my office in D.C. at 8:40 a.m. 
Holding a hearing to examine findings that are not made 
available to committee members in time to adequately prepare is 
an utter waste of time.
    Do you want to have a productive hearing, rather than 
another piece of political theater, you will please reschedule 
this hearing until the report is released. And now, of course, 
it has been released at 5:40 a.m., Arizona time.
    Sadly, it looks like this hearing is just a distraction to 
keep us from focusing on the real needs of the Nation, or other 
needs of the Nation. I'm not saying this is a de minimis 
hearing. What I'm saying is there are other issues as well, 
such as ending the crisis at the southern border, finding the 
origins of the COVID-19 virus, or stopping drastic inflation of 
the Biden administration's policies, and others that I've 
requested hearings on from you, Madam Chair.
    So, I look at this, and I'd say, I am learning a lot as I 
listen today, but I didn't have a chance to actually go through 
your report, and then investigate it further. For instance, 
when the previous speaker said supine doesn't mean horizontal--
supine means horizontal. It actually means laying on one's 
back. It doesn't even necessarily mean horizontal. I would like 
to know more of what that is and how it figures into this 
particular matter that we're at.
    Your opening statement, Madam Chair, resembled more of a 
closing statement at a class action lawsuit, which, it is my 
understanding, that there is litigation ongoing in this matter. 
What we're reviewing is specified allegations about a specific 
company that deserved specified remedies that you get through 
the court system.
    I am content that we are doing this hearing. I would have 
liked to have the report, so I could read it, analyze it, and 
pour over it, the way I read every other guidance regarding 
this particular hearing.
    I have found that it looks to me like people's minds are 
already made up. And mine was more I want to get to the bottom 
of this and understand what's going on. I think I've been 
regrettably denied that opportunity because of the failure to 
release the report. I don't know when the witnesses received 
the report, or if they have received the report yet.
    And so, I have two questions for the witnesses. And I don't 
know who wants to take it, but have either of you received a 
copy of the report from the committee?
    Mr. Kreiz. It came in this morning.
    Mr. Biggs. You got this this morning? Did you have a chance 
to review it and include and prepare based on what you saw in 
preparation for this hearing?
    Mr. Kreiz. Our advisers received apparently last night. I 
saw some of it this morning, but I have not had the opportunity 
to review it.
    Mr. Biggs. Second question. How many of these units did you 
sell before you took it off the market worldwide?
    Mr. Scothon. 4.7 million, 4.7 million.
    Mr. Biggs. 4.7 million. Were there any other incidents 
reported besides the reported deaths?
    Mr. Scothon. There were incidents. I don't know the 
specifics on those. We'll call other incidents they were not 
death related. I would have to get you the detail on that.
    Mr. Biggs. I wish you would.
    And I thank the Madam Chair for the time. I appreciate it.
    Chairwoman Maloney. I thank the gentleman for raising your 
concerns. And I recognize myself to respond.
    This was a two-year effort, and the minority staff, the 
Republicans and Democrats, worked together on this report. For 
every single interview, staff members from both the Republican 
and Democratic side were present. And the text of the report 
was a bipartisan one in which they both cooperated.
    It's true that the report was just released this morning to 
Democrats and Republicans at the same time. Mr. Comer and I got 
it roughly two days before that. And the hearing really is on 
the subject matter, just not on the report itself, but on the 
subject matter of this hearing. And I would say that your 
colleagues, our colleagues on both sides of the aisle, are 
asking very thoughtful and pointed questions just based on 
that. But if you're concerned that you did not have appropriate 
time to prepare, we could have another meeting or another 
hearing on this at a later time that's convenient for you, and 
for which you feel you can have more time to respond.
    This is a very, very serious matter. The loss of a child 
that could have been prevented if these products had been 
tested and taken off the market when they were aware that 
children were dying. We are working on legislation to give more 
teeth to the CPSC so that they can enforce safety standards 
going forward. We look forward to working with you and your 
colleagues in a bipartisan way on this legislation to make sure 
that this never happens again.
    Mr. Biggs. Would the chair yield?
    Chairwoman Maloney. I look forward to working with you in 
the future.
    I yield back.
    Mr. Biggs. Madam Chair, would you yield time?
    Chairwoman Maloney. Yes, I will yield.
    Mr. Biggs. Thank you, Madam Chair. I would only say that 
the reason that it was vexing for me is because I hadn't been 
on this committee until January of this year, No. 1. No. 2, one 
of the reasons for holding this hearing is stated in the 
chairwoman's notification of the hearing, was to examine 
findings from the committee's investigation. That report is, I 
assume, the findings of the committee's investigation. That's 
why it was so imperative, and I would have liked to have more 
time.
    I appreciate it. And I yield back.
    Chairwoman Maloney. We will be delighted to give you more 
time and have another hearing if you so wish.
    I will now recognize Mr. Raskin. You're now recognized for 
five minutes.
    Mr. Raskin. Madam Chair, thank you very much for calling 
this important hearing. And if you're being accused of acting 
like a lawyer for 97 American families who lost a child to this 
product, then that's nothing for you to be ashamed of. I would 
much rather be accused of being a lawyer for those families 
than acting as a pro bono counsel for this corporation.
    Mr. Kreiz, I want to ask you, we're looking at this 
nightmare of 97 families who lost an infant in using your 
product. And you've said repeatedly that the product's safe 
when used with its instructions and its warnings. And when you 
say that, I hear you to be blaming the parents for what went 
wrong. What did the parents do wrong that caused the deaths of 
their own children?
    Mr. Kreiz. Well, we absolutely do not blame the parents. 
This is not the parent's fault. I never said it, and we don't 
believe it's the parents' fault. It is about using the product 
in line with instructions and safety warnings. And there are 
different reasons, or different causes, that could have brought 
terrible losses and terrible accidents. And I mentioned earlier 
the phenomenon of SIDS, which is one situation where young 
babies die suddenly in an unexpected manner. This is a 
nightmare for every young parent. In addition, in some cases, 
babies were not strapped, and that is an important part of the 
safety and warning instructions. So, we feel it is our 
continuous commitment to work with parents and other----
    Mr. Raskin. OK. Mr. Kreiz, I'm going to reclaim my time 
here because we're limited.
    Last week we learned that Fisher-Price is recalling two 
more incline products that you had marketed for sleep. Four 
infants died in one of the products, the Rock 'n Glide Soother. 
The announcement came two days after the CPSC passed a new rule 
banning all incline sleep products, because they are unsafe for 
children. I would like to enter into the record a letter that 
the committee received from Consumer Reports dated June 4, 
2021. Consumer Reports wrote that in November 2019, it sent a 
letter to you, Mr. Kreiz, urging Mattel to stop selling all 
incline products marketed for sleep, and to immediately recall 
all incline sleepers.
    Mr. Raskin. The following week Mr. Scothon, you wrote back, 
stating that the company would not recall those products, 
including the Rock 'n Glide Soother, because, quote, ``It has 
not been marketed for overnight sleep.'' Mr. Kreiz, how many 
infants had died in the Rock 'n Glide Soother by the time 
Consumer Reports sent you this letter?
    Mr. Kreiz. Well, we were aware of four fatalities, all of 
which all of those cases unfortunately were found, and this is 
according to the investigation report from the CPSC, in all 
four incidents, the infants were unrestrained and left for 
overnight or unsupervised sleep.
    Mr. Raskin. Well, two of them died before the letter was 
sent to you by Consumer Reports. And then after you refused to 
recall the product, two more died. And we know not just through 
scientific studies and data, but from the number of infants who 
died in your company's incline products, that it's not safe for 
infants to sleep at any incline at any time, day or night, 
whether you call it napping or something else.
    Mr. Scothon, your letter to Consumer Reports stated the 
Rock 'n Glide was not marketed for overnight sleep. But in the 
company's own marketing materials, the product was marketed 
for, quote, ``napping'' and, quote, ``while your baby gets 
rocked to sleep.''
    In Ms. Thompson's video that we watched at the start of the 
hearing, she said that she put her son, Alexander, in the Rock 
'n Play for 10 minutes, and when she checked on him, he had 
stop breathing, and he had died. Does Fisher-Price now 
acknowledge that the length of an infant's sleep time is 
irrelevant if the sleep position is unsafe? Mr. Kreiz, what is 
your answer to that?
    Mr. Kreiz. Well, let me first say that we did not know of 
any fatalities at the time of receiving the letter. We found of 
those cases, the first case we found in January 2020.
    Mr. Raskin. But the whole reason they sent you the letter 
was because of the fatalities. Do you believe the company was 
wrong not to recall the Rock 'n Glide earlier before we lost 
two more children?
    Mr. Kreiz. What every loss is a tragedy. And we continue to 
collaborate with the CPSC to understand what is behind those 
incidents. And we still believe that the Glider was safe when 
used in accordance with instructions.
    Mr. Raskin. Do you have any other incline products that are 
still being marketed for sleep, still on the market?
    Mr. Kreiz. No.
    Mr. Raskin. You will have taken them all off?
    Mr. Kreiz. Correct.
    Mr. Raskin. Well, Madam Chair, I just want to say this 
company had overwhelming evidence it was unsafe for babies to 
sleep at an incline, even for short periods. They've been told 
by a number of foreign countries. They've been told by a number 
doctors. They have warned by Consumer Reports. If they chose to 
keep their inclined products marketed for sleep on the market, 
this demonstrates the absolute recklessness, at least, if not a 
deliberate defiance of the facts. And this is a terrible 
tragedy.
    I hope that all of our colleagues, and I hope that these 
witnesses will recognize, this is what government is for. We 
need regulation because these companies overwhelmingly put 
profit first. And that's the way that our system works. But we 
cannot entrust to these companies the safety of our children. 
This is why we need government.
    I yield back to you, Madam Chair.
    Chairwoman Maloney. The gentleman yields back.
    Mr. Cloud. Madam Chair.
    Chairwoman Maloney. To startup, Mr. Donalds is recognized 
for five minutes. Mr. Donalds.
    Mr. Cloud. Madam Chair. Madam Chair. Madam Chair.
    Chairwoman Maloney. Whose seeks recognition?
    Mr. Cloud. Michael Cloud.
    Chairwoman Maloney. Michael Cloud, you're now recognized.
    Mr. Cloud. The committee staff just asked me, for the 
purposes of correcting the record, to bring up the fact that 
the minority staff was not involved in producing the report. 
They were not invited to do so. They were able to attend some 
briefings along the way. But as the report's cover suggests, it 
says it's prepared for the chairwoman. It does not mention the 
chairman. And, so, just for the purposes of correcting the 
report, I wanted to acknowledge Mr. Biggs' point.
    Thank you very much. I yield back.
    Chairwoman Maloney. So noted.
    The gentleman from Florida, Mr. Donalds, is recognized for 
five minutes. Mr. Donalds.
    Mr. Donalds. Thank you, Madam Chair. First, I want to 
associate myself with the comments that were stated by Mr. 
Biggs. It would have been nice if I actually had a chance to 
actually read this report before coming into this hearing, you 
know, but it is what it is, and we're here now.
    The second thing I would say, Madam Chair, is obviously I 
have three sons, let's start there. I justly actually just 
dropped my oldest off at college on Saturday. And, so I know 
what it is to raise your children from when, you know, they are 
infants, watching them sleep, trying to find something, 
anything to help your children sleep. I've been through it. My 
oldest was easy. He could sleep just about anywhere so it was 
really not a big deal. My younger two sons, I mean, for lack of 
a better phrase, it was kind of a nightmare to find the right 
solution for them specifically to be able to get a two-hour 
nap, let alone an overnight sleep.
    And, so, my wife and I went through a lot of products. We 
went through a lot of different things. I think my youngest 
son, we actually did use an incline sleeper in his crib. And it 
was tough, you know. We understand the possibilities of 
rollover. But when a child won't sleep, unfortunately a lot of 
parents who feel the pressure, whether it's just ultra-fatigue, 
crying, trying to find a way to just get your child to be 
comfortable. And it is very trying for a lot of parents.
    So that's just my own personal stories. I know we used an 
incline sleeper for our youngest son. And we had to take some 
additional steps past what the manufacturer said on the 
product.
    The reason why I want to state that is because, don't get 
me wrong, but the topic of this hearing is important. Nobody 
wants to lose a child, let alone an infant. That's a tragedy I 
can't even come to grips with or even understand. But I think 
it's important for the chairwoman and the majority to 
understand, that there are other issues affecting our country 
which are impacting children. My colleagues have said some of 
them.
    The origins of the coronavirus, which seems like more and 
more every day, it does look like it was leaked out of a lab, 
and we're not even talking about that in this hearing. 
Hopefully, that's something that the majority chooses to hear 
and actually discuss, have a robust discussion in the Oversight 
Committee, especially considering if anything had to do with 
any grants that may or may not have been authorized or written 
out of the executive branch, that would be very helpful to 
understand, especially what's going on in southern border.
    I was actually with Representative Cloud for my second trip 
to the border. I was there last week. And you do have young 
children who are in holding facilities, whether it's with 
Border Patrol, or whether it is Health and Human Services. You 
have young kids who are being basically moved by the current 
administration all over the United States on coach buses, or on 
airplanes, to other facilities that are being licensed or 
basically being used through contract by HHS. It would be 
important for the Oversight Committee to actually get to the 
bottom of that, because you do have a situation where you have 
children, infants up to 6 to 10, to 17 years old, who are 
crossing our border with smugglers. They are not crossing with 
parents. I've been down there. I've seen it.
    You have some who are crossing with parents, but the vast 
majority are crossing with smugglers. They are unaccompanied 
minors and they are ending up in our facilities. You see kids 
cry, you see the type of things you would never want to see 
your child go through. And there are many, many children who 
are experiencing that. I think that these are things that this 
committee should definitely be looking into as well.
    But that being said, you know, Mr. Scothon I think that's 
how you pronounce your name. Is that right, Scothon?
    Mr. Scothon. Scothon.
    Mr. Donalds. Scothon. My apologies. My question for you is, 
for the record, what are the actual safety protocols for the 
Rock 'n Play Sleeper? How is it actually supposed to be 
utilized?
    Mr. Scothon. The Rock 'n Play Sleeper was a sleeper 
intended for long-term, overnight, or unsupervised sleep. The 
intent was to put the baby on the back, use the restraints.
    Mr. Donalds. Let me ask this question. Define the 
restraints. What are the actual restraints? Because restraints, 
that sounds good in a committee. What is it actually?
    Mr. Scothon. Thank you. It is basically a small harness, it 
goes around the waist, it fits up between the legs, hits around 
the waist to the slide and clips in. So it is basically two 
clips around a triangular pad that would fit over the belly and 
between the legs.
    Mr. Donalds. So, in some respects, it is like an upside 
down five-point harness, in some respects? Is that about right?
    Mr. Scothon. In some respects it's a three-point, not a 
five-point. We do the three point to keep it lower on the waist 
and below.
    Mr. Donalds. The clips that you basically buckle the child 
in with into the restraints harness, are those adjustable?
    Mr. Scothon. They are.
    Mr. Donalds. How many deaths have occurred associated with 
your products?
    Mr. Scothon. Again, as I shared I believe right now we have 
a report of 97, we are investigating those. Four have been 
shown right now not to be our product. We are continuing to 
investigate. At the time of the recall, it was 32. That was the 
number.
    Mr. Donalds. Are you currently in litigation in court 
associated with these deaths?
    Mr. Scothon. We are. We are in conversations with--yes?
    Mr. Donalds. OK. Last question, of the ones that you've 
been able to go and investigate, how many of these deaths have 
occurred where the harness, or the restraint was not utilized?
    Mr. Scothon. I don't have that specific number at this 
time. And I wouldn't want to give you a specific quote to that 
at this point.
    Mr. Donalds. All right. I'm done.
    I yield back, Madam Chair.
    Chairwoman Maloney. The gentleman yields back.
    And the chair recognizes the herself to really respond 
briefly to his heartfelt comments. It's true we should be 
focusing on COVID. In fact, the leader created a subcommittee 
just dedicated to COVID led by very talented and dedicated 
Representative from South Carolina, Congressman Clyburn.
    We've had a series of meetings very focused on getting help 
out to people, supplies they need and vaccinations. I believe 
that his leadership and President Biden has been extraordinary 
in centralizing the distribution of vaccines, giving them out 
to the people. The President has called for a 70-percent 
vaccination rate. We are working very hard in New York to meet 
that rate. We will meet it, I believe, by July 4th. And I 
understand a number of other states are working with the 
Federal Government. We can't open up and be safe until 
everyone's vaccinated. We have all dedicated ourselves to 
working on it.
    He rightfully expressed concern about the border. We have 
conducted studies on the separation of children at the border. 
We are working, trying to find their parents. No paperwork was 
saved for this. No paperwork at all. So, it's very hard to find 
the parents. In some cases, the parents of--we've documented, 
they've already been deported, and the children we are trying 
to figure out how to put them back together again. I want to 
compliment one of the members of our committee, Jackie Speier, 
who has led several journeys to the border with Members, myself 
included, on many of the challenges there.
    And we are in the midst, now, of a study on the 
sterilization of women against their will, immigrants who came 
it our country that were put into forced sterilization, which I 
believe is cruel and unusual punishment. Maybe we should have a 
meeting and go down to the border and to the facilities, and 
meet with these women. We invite you to join us. I thank you 
for raising those issues. And we are working on----
    Mr. Donalds. Madam Chair?
    Chairwoman Maloney. And I must say, very importantly, we 
are looking at sole source, no-bid contracts that were just 
negotiated and given to people. Our last hearing was over $600 
million that was given to a company, sole source, no-bid 
contract, to develop vaccines; only they haven't, to this date, 
even developed one successful vaccine that we can trust to put 
into people's arms. So we're working very hard in many of the 
areas that the gentleman mentioned, and we ask you to join us.
    And I now call on----
    Mr. Donalds. Will the chairwoman yield?
    Chairwoman Maloney.--Illinois, the gentleman from Illinois, 
Mr. Davis, you are now recognized.
    Mr. Donalds. Will the chairwoman yield?
    Chairwoman Maloney. I am yielding to Mr. Davis.
    Mr. Davis. Thank you, Madam Chairman.
    Mr. Donalds. The chairwoman won't yield.
    Mr. Davis [continuing]. For calling this very important 
hearing, and I certainly appreciate our witnesses for being 
with us.
    The Rock 'n Play was recalled in April 2019, but documents 
obtained by the committee shows that Mattel began receiving 
reports that infants had died in the Rock 'n Play as early as 
2012. On October 26, 2012, Mattel received a report from a 
consumer who said that a year earlier, in October 2011, her 
two-month-old son, and I quote, ``had stopped breathing,'' end 
of quote, while in the Rock 'n Play.
    The consumer told Mattel that she believed, and I quote 
again, ``Due to the slant in the product, his head may have 
been positioned in his chest at the time. She picked him up, 
and thankfully he began breathing again. The mother wrote to 
Mattel because she loved the convenience of the Rock 'n Play, 
and was considering using it for her next child, but she was 
worried about the safety of the design.
    She then asked whether the company had made any changes. A 
Mattel employee told the mother that the company had not made 
any changes, offered her a refund, and asked her to ship the 
Rock 'n Play back to the company. Internal documents show that 
a Mattel employee made a note on the report dated June 2013, 
more than six months later, which simply read, quote again, 
``No further contact. Closing case.''
    Mr. Scothon, is this how Mattel typically handles these 
type of reports?
    Mr. Scothon. Sir, whenever we get a report, we do our best 
to investigate, and find out, and look at every report 
individually. So, I can't speak to that one incident. I was not 
involved directly with that incident. What I can tell you is, 
when we elevate and escalate anything that might be considered 
a safety contact or phone call into our safety process, and it 
elevates and activates the ability for us to go back, engage 
with those and really implement the safety overview process to 
better understand the situation.
    Mr. Davis. Let me ask, did you conduct any additional 
research or testing to make sure that the Rock 'n Play was safe 
for use?
    Mr. Scothon. We have done extensive testing, both from the 
beginning, prior to the product launch. We followed that up 
with additional continued observational research study 
throughout. In 2016, we did additional study with regard to the 
rate--excuse me, the degree of incline and the impact on 
breathing as it was shown not to have any impact at all.
    Mr. Davis. Thank you.
    Did Mattel take any steps to warn consumers about the 
possible danger reported in that case?
    Mr. Scothon. Specific to that case, I'm not aware of any 
steps that were taken to talk to the consumer. What I can say 
is we were obviously were investigating that case. When we 
could not make contact further, that may be why it was closed, 
that case specifically. But what I can tell you is going back 
to the beginning, whenever we get a report of safety, we 
implement our safety processes. We engage with the consumers. 
We try to understand more----
    Mr. Davis. My time is running. So let me ask you this: Less 
than two months after the report we just discussed, Mattel 
received another report about an infant who had died in the 
Rock 'n Play. And according to internal documents, the company 
tried to followup with the consumer twice, received no 
response, closed the case. Does the company do any other 
research to try and rectify or deal with that situation?
    Mr. Scothon. Once again, sir, we will make contact and make 
the efforts to reach those consumers. We immediately also 
communicate back to the CPSC with all of our information to 
make sure that they are notified within 24 hours of what we are 
to see if they have any information.
    Mr. Davis. Let me--my time is about to run out, Mr. Kreiz. 
Let me ask you, based on the reports we just discussed, do you 
think your company took the potential safety issues with the 
Rock 'n Play seriously enough when you first began receiving 
these troubling reports?
    Mr. Kreiz. I am absolutely convinced that we did everything 
we could to ensure that our products are safe, and that we 
looked at every case to understand if there is anything we can 
do to change or to protect----
    Mr. Davis. Well, I'm not really convinced that that's what 
totally happened. And I think that there's no reason why the 
manufacturers should be allowed to shield information from the 
public about deaths associated with their products. Americans 
have a right to know whether the products they are buying may 
pose a danger to them or their families. I think a legend 
corporation can do better.
    Madam Chairman, I know my time has expired, but I'd like to 
submit two additional questions for the record and get a 
response in writing.
    And I yield back.
    Chairwoman Maloney. So ordered. Thank you.
    The gentleman yields back.
    Chairwoman Maloney. The gentleman from Texas, Mr. Fallon, 
is recognized for five minutes. Mr. Fallon.
    Mr. Fallon. Madam Chair, thank you. I yield one minute to 
my colleague, Representative Donalds, from Florida.
    Representative Donalds?
    Mr. Donalds. Oh, I'm here. I was waiting for the 
chairwoman. I didn't hear her, so I was trying to be respectful 
of the committee.
    OK. Well, I will say this and add this in it. Thank you, 
Mr. Fallon, for yielding some time to me.
    I do understand that the administration has been doing what 
it feels is best when it comes to making sure people get shots 
in arms. But we have a real theory going on right now, an 
active one, about whether the coronavirus came from a lab in 
Wuhan Province. Instead of us just waiting for the 
administration to figure out and do some investigation, this 
committee should be doing this. Like I said, I'm just a new 
member so I'm not on the special committee led by Mr. Clyburn. 
I don't know what they are doing in their committee. I think it 
is important that the Oversight Committee actually step into 
these issues as well and begin to actually study them, and have 
hearings on them, and get to the bottom of stuff as well. We 
shouldn't just push it off to some select committee, because 
what I've found in observing Congress is that multiple 
committees tend to investigate things when Congress decides 
that it wants to investigate things. So that's what I'll say. 
I'll stop there.
    And I yield back to Mr. Fallon.
    Mr. Fallon. Thank you.
    And Madam Chair, thank you for the time. I'd like to 
associate my remarks with Representative Biggs and 
Representative Donalds. Historically, decades, and even in a 
century from now, folks are going to be looking at how the 
United States handled the coronavirus, and I really believe the 
Biden border crisis. And these are things that would be 
wonderful if this committee, and we are really perfectly poised 
to deal with things just like this.
    The lab leak theory is the story of the century. Is it 
true? And we should do everything we can to foster finding out 
the truth. And also with the Biden border crisis, having 
visited the border, being a border states, the things that 
frighten me are the drugs cartels are de facto in charge of our 
southern border and they create misery. And I think everybody 
on this committee, and for that matter, the folks in our 
Chamber, nobody is going to sympathize with the drug cartels. 
So how active are they? Because the folks that are coming from 
Central America, so many of them are being provided free 
transit, and then working essentially as indentured servants.
    I've also read because, again, we are a border state, and I 
have been researching this for over a decade, that a very high 
percentage of women that migrate from Southern Mexico and 
Central America are either raped or sexually assaulted along 
the journey. These are the kinds of things that I think 
everybody on this committee would be in favor of getting to the 
bottom and stopping evil. So I wanted to thank my colleagues 
for their remarks.
    I'm trying to get my arms around this and simplify things. 
I know it's difficult, as a former business owner, to operate 
in a very imperfect world, and particularly when you're making 
and producing products that infants will use. And, 
unfortunately, there are tragedies that will occur. And I 
thought initially reading the material that we're talking about 
single digits here. Ninety-seven is an alarming number, a 
frightening number. And, so, I wanted to ask quickly and I 
don't have a lot of time, but Mr. Kreiz, did you just say in 
your testimony about 30 minutes ago that you were personally 
unaware of any fatalities until 2020? Did I get that right?
    Mr. Kreiz. That was only in relation to the glider, the 4-
in-1 Glider, not the Rock 'n Play.
    Mr. Fallon. OK. So when were you made aware of some 
fatalities with the Rock 'n Play was it the sleeper?
    Mr. Kreiz. Yes, the company first learned about it in 2012.
    Mr. Fallon. 2012.
    Is that when--were you the CEO then? Were you working?
    Mr. Kreiz. No. I joined the company in April 2018.
    Mr. Fallon. 2018. OK. Thank you. All right.
    So Mr. Scothon, were you--how long have you been with the 
company?
    Mr. Scothon. My total tenure with the company is 20 years. 
I was with Mattel up until approximately 2011, 2012, left, and 
came back in January 2018 as the head of Fisher-Price.
    Mr. Fallon. OK. So you were there when Australia, I guess--
did they ban it or did they even allow it to be there in the 
first place?
    Mr. Scothon. Yes, so to be clear, I did not have 
responsibility on Fisher-Price during that period in time. I 
was in a Mattel role but not on the infant and preschool 
business but I can speak to that. It's my understanding that we 
were reaching out. We were considering the launch of the 
product, and it was the Australian regulatory group that was 
not comfortable with that. And as we do with many products, we 
work with the local regulation groups to understand and be 
aligned. As a result, we did not launch the product in 
Australia.
    Mr. Fallon. OK. And so and my time is pretty much up.
    But I just wanted to say real quickly that it concerns me 
greatly that an American company would see that and have full 
knowledge that Australia and Canada wouldn't allow this product 
to be sold and yet I just don't think--maybe it was the legal 
thing that, you know, legally you could sell the product in the 
United States. I just don't feel it was the moral thing to do 
when you're talking about 97 deaths. That's tremendous.
    And, Madam Chair, my time is up. So I'll yield back.
    Mr. Raskin. [Presiding.] Thank you.
    The gentleman's time is expired.
    Ms. Wasserman Schultz is recognized for your five minutes 
of questioning.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    And I want to thank the chairwoman and the leadership of 
this committee for not just being a one-track mind when it 
comes to the issues that the Committee on Oversight and Reform 
focus on. Ninety-seven babies, as Mr. Fallon just noted, is a 
stunning number.
    And, in fact, in 2005, a full four years before the Rock 'n 
Play was released on the market, the American Academy of 
Pediatrics released safe sleep guidelines, advising that babies 
should be wholly on their backs for sleep and that a, quote, 
``firm crib mattress covered by a sheet is the recommended 
sleeping surface.'' In fact, I put up the definition of 
``supine.'' The worked ``horizontal'' is nowhere in it. It is 
face up, on your back. That's the definition.
    With an inclined seat and plush padding, the Rock 'n Play 
clearly defied safe sleeping recommendations and it was 
released in 2009. It was--when it was released in 2009, it was 
the only product on the market designed for infants to sleep at 
an angle, settling on a 30-degree incline for the Rock 'n 
Play's seat back.
    Mr. Scothon, briefly, how did Mattel land on the 30-degree 
incline for the Rock 'n Play seat back?
    Mr. Scothon. So, the Rock 'n Play was extensively 
researched and developed. We used both expertise that we had 
in-house. We looked at external studies that had been done on 
other product categories to understand inclines and reports. We 
spoke to an outside medical family practitioner with a focus on 
biomechanics. And it was at that point that the 30 degree and 
under, that was done in partnership as well. That was where our 
first started----
    Ms. Wasserman Schultz. Reclaiming my time, in fact, that 
outside expert has since lost his medical license and was 
completely discredited in many cases in which he served as an 
expert witness.
    You know, the committee conducted interviews with several 
Mattel employees, none of whom could confirm how or why the 
company settled on a 30-degree angle, other than in reference 
to products that were not intended for sleep.
    For example, Mattel's senior director for product safety 
said the company, quote, ``relied on the research that was 
available, showing where angles had been a problem like car 
seats.'' Car seats have an angle of about 45 degrees, and 
medical studies available at the time the Rock 'n Play was 
released show they are not safe for infant sleep. A Fisher-
Price engineer who helped create the Rock 'n Play said that the 
company decided on 30 degrees for the Rock 'n Play because it 
is, quote, ``well below 45 degrees.''
    Mr. Scothon, before bringing the Rock 'n Play to market, 
did the company do any research to verify that a--to verify 
that a 30-degree angle was safe for a product that would be 
marketed for sleep? Yes or no, please.
    Mr. Scothon. We did extensive research. I can't say that it 
was verifying the 30-degree question.
    Ms. Wasserman Schultz. OK. Thank you.
    The committee interviewed Mattel's senior director of 
product safety. When asked whether the company had done any 
research to establish that a 30-degree angle was safe, he 
responded, and I quote, ``I can't say I've seen research like 
that. Typically at least in my experience you don't see 
research saying things are safe. You know, people research 
things that are not safe.''
    Mr. Scothon, does that response align with your experience?
    Mr. Scothon. That response certainly is reflective of how 
we've looked at things in the past. I think as we've shown----
    Ms. Wasserman Schultz. Reclaiming my time.
    So in other words, Mattel relied only on research showing 
what is not safe, rather than conducting its own research 
showing that your product design is safe.
    Mr. Kreiz, let me give you an opportunity to respond. Is 
the statement by your employee a fair characterization of 
Mattel's practice where they just focus on what wasn't safe, 
not what was safe?
    Mr. Kreiz. This is what the company did at the time, I 
believe. But it is important to say that we also looked at 
other studies and we did in 2018 a study by one of the top 
engineering firms in the country that said, that concluded that 
infant facilities occurred as frequently----
    Ms. Wasserman Schultz. Reclaiming my time. Thank you.
    You know, if most parents knew how Mattel had gone about 
designing the Rock 'n Play, they never would have bought it for 
their infants. I have three children of my own. I know it's 
hard to get babies to sleep. I had twins. Trust me. I 
understand. And busy moms and dads count on safe products from 
trusted brands to help with that. Fisher-Price is, you know, 
supposed to be among them but it's shameful what the company 
did here. Just listen to the answers to my questions.
    They focused not only what was safe but on what wasn't. And 
if companies can't be trusted, the government has to have a 
real ability to notify parents or quickly recall products. The 
existing protections failed here. Parents deserve a lot more 
from the companies designing products for our children and from 
the laws designed to protect them, and I'm very eager to work 
with the chairwoman and my colleagues on improving both.
    Thank you. I yield back the balance of my time.
    Mr. Raskin. The gentlewoman yields her time back.
    I now recognize Mr. Johnson for his five minutes of 
questioning.
    Mr. Johnson. I thank the chair.
    Mr. Scothon, a baby's head is large and heavy in proportion 
to the rest of the infant's body. Isn't that correct?
    Mr. Scothon. Yes.
    Mr. Johnson. And the baby's neck muscles are not strong 
enough to support its head. Correct?
    Mr. Scothon. Well, that's very much focused around the 
development of a child.
    Mr. Johnson. I mean, in general, an infant is not able to 
support its head with its neck muscles. Isn't that correct?
    Mr. Scothon. In the first few weeks of life, yes. That is 
correct.
    Mr. Johnson. And the Rock 'n Play's 30-degree incline 
allows a baby's head to slump forward which can block the 
baby's trachea and cause the baby to choke to death by 
suffocation. The 97 babies who died, most of them died from 
suffocation. Isn't that correct?
    Mr. Scothon. Sir, first of all, the----
    Mr. Johnson. Is that correct, yes or no?
    Mr. Scothon. No. I do not----
    Mr. Johnson. All right. OK. Thank you.
    In April 2019, when the Consumer Product Safety Commission 
and Mattel were negotiating the terms of the Rock 'n Play 
recall, Mattel tried to insert language into the agreement, 
stating that the Rock 'n Play's design had not caused dozens of 
infant deaths that occurred while using the product. The 
Consumer Product Safety Commission rejected that language, and 
the Rock 'n Play was recalled in April 2019.
    Isn't that correct, Mr. Kreiz?
    Mr. Kreiz. I don't recall the specifics, but I trust what 
you say.
    Mr. Johnson. Is that your understanding, Mr. Scothon?
    Mr. Scothon. Well, when we enter into a voluntary recall, 
we are removing the product. So that's what I can recollect and 
remember. I can't----
    Mr. Johnson. Do you recall that--that there was language 
which you sought to include which stated that the Rock 'n Play 
was not the cause of death for the infants?
    Mr. Scothon. Sir, when we're recalling a product, what 
we're doing is removing it from the marketplace.
    Mr. Johnson. I understand that. I'm just asking you a 
question. Let me move on.
    Mr. Scothon. Sorry.
    Mr. Johnson. In October 2019 the Consumer Product Safety 
Commission published an independent study conducted by Dr. Erin 
Mannen, who is a baby biomechanics researchers, and a team of 
pediatric experts and the study concluded that infant inclined 
sleepers were unsafe for infant sleep and put infants at a 
higher risk of suffocating than a firm crib mattress.
    Last week based on--based in part on Dr. Mannen's research, 
the Consumer Product Safety Commission passed a rule banning 
all infant inclined sleepers because of the dangers that they 
posed to infants.
    Mr. Kreiz, do you agree that the new rule banning infant 
inclined sleepers will help protect infants from suffocation in 
the future?
    Mr. Kreiz. My understanding was that Dr. Mannen's report 
was false. It was wrong in that she placed the infants----
    Mr. Johnson. You don't believe then that the new rule 
banning infant inclined sleepers will help infants from 
suffocating in the future?
    Mr. Kreiz. Well, we're out of that business. I think it's 
important to recognize the study----
    Mr. Johnson. Do you think that that--do you think that that 
new rule will protect infants from suffocation?
    Mr. Kreiz. I believe that it's important to use product in 
accordance with the product, what it was intended.
    Mr. Johnson. OK. Well, let me ask you this. Do you 
acknowledge that Rock 'n Play was not safe for infants?
    Mr. Kreiz. We believe the product was safe when used in 
accordance----
    Mr. Johnson. Is that misused and that these infants 
suffocated because the parents failed to follow the 
instructions. I get that.
    Mr. Kreiz. No, we don't blame the parents.
    Mr. Johnson. Has Fisher-Price or Mattel issued any written 
warnings to the millions of consumers who purchased the 
recalled Rock 'n Play products, warning those consumers about 
the inherent dangers of the Rock 'n Play and that they should 
not put their babies in that Rock 'n Play?
    Mr. Kreiz. Well, we work in collaboration and strong 
cooperation with the CPSC and----
    Mr. Johnson. Have you sent a notice to consumers, sir? Yes 
or no.
    Mr. Kreiz. No.
    Mr. Johnson. Mr. Kreiz, is Fisher-Price or Mattel or any of 
its affiliates or subsidiaries still selling the Rock 'n Play 
in foreign countries? Yes or no.
    Mr. Kreiz. Sir, just want to come back to my prior 
question, we----
    Mr. Johnson. Yes or no, are you still selling that Rock 'n 
Play in foreign countries?
    Mr. Kreiz. No.
    Mr. Raskin. The gentleman's time is expired, but the 
witness may answer that question.
    Mr. Kreiz.
    Mr. Kreiz. No, no, we don't.
    And we did send a recall notice to consumers to correct my 
prior answer.
    Mr. Raskin. OK. Thank you. The gentleman's time is expired.
    I now recognize Ms. Speier for her five minutes of 
questioning.
    Ms. Speier. Thank you, Mr. Chairman.
    Mr. Kreiz, I realize you weren't the CEO of the company at 
the time. But back in 2012, CPSC actually--or FDA, I should 
say, warned customers to avoid any kind of contraption that was 
being used for babies that was not totally flat. By then, your 
product was linked to 13 deaths over 15 years. So, the FDA had 
made that statement. You already had 15 deaths.
    In 2013, you actually recalled 800,000 Rock 'n Plays 
because of mold. So, death wasn't significant to recall the 
Rock 'n Plays but mold was? Do you have a comment to that?
    Mr. Kreiz. Sure. My understanding was that the mold recall 
was about a product issue.
    But, more importantly, when it comes to babies' safety, we 
do not compromise, we do not take any risk, and we will always 
go the extra length to confirm that our products are safe and 
appropriate for usage. In the--as my understanding is that we 
continued to analyze and investigate every specific incident--
--
    Ms. Speier. Reclaiming my time, if this happened today and 
it was an issue of mold versus death, would you have done the 
same thing and not recalled the Rock 'n Plays?
    Mr. Kreiz. Well, of course. Babies----
    Ms. Speier. Yes or no, please. Yes or No. I have limited 
time.
    Mr. Kreiz. Yes. And we will always prioritize safety above 
all.
    Ms. Speier. All right. What about the fact that daycare 
centers may still have these Rock 'n Plays? Have you recalled 
them? Have you notified them, and have you recalled them?
    Mr. Kreiz. Yes, we take extensive actions to promote the 
recall in an effort to raise consumer awareness. We provide 
information on our website. We use----
    Ms. Speier. No. Are you recalling them? It's unclear 
whether you're just noticing the public now. Or are you 
recalling these products?
    Mr. Kreiz. Yes, we have recalled it.
    Ms. Speier. You have recalled them. So, you're refunding 
money to all of these purchasers?
    Mr. Kreiz. I'm sorry. Yes. Sorry. I got--now I understand 
your question. We have recalled the product back in 2019 and 
are proactively in the marketplace, ensuring that we reclaim 
any product that is in the market that we can get--that we are 
aware of.
    Ms. Speier. Would you support--would you support an 
amendment to the CPSC that would no longer provide the kind of 
a gag rule that allows for deaths of products to not be 
disclosed to the public?
    Mr. Kreiz. We would be more than happy to collaborate with 
the regulators to improve all--every aspect of consumer safety 
and I'm here, committing to do that and work----
    Ms. Speier. So, I guess my question is: Would you oppose 
the repeal of that section 6(b) of the Consumer Product Safety 
Act?
    Mr. Kreiz. I would need to understand that better.
    Ms. Speier. It's quite simple. Basically, it would allow 
that the names and the information about products that are 
linked to injuries and death be made public.
    The only reason why you ended up recalling the Rock 'n Play 
was because consumer--the Consumer Reports inadvertently got 
the data from the CPSC that showed the deaths and once the 
deaths were made public through consumer reports, then game 
over.
    So, the problem is that the public does not know. And my 
question to you is: Do you have any other products that are 
manufactured today that are in the marketplace that have been 
linked to deaths of children?
    Mr. Kreiz. Well, we recalled the gliders that were linked--
--
    Ms. Speier. I understand that. I'm talking about any other 
products that we, the American public, do not know about that 
have caused or have been associated with the deaths of 
children.
    Mr. Kreiz. We share all information with the CPSC. I don't 
have any further data than that, but I can tell you we work 
transparently with the CPSC----
    Ms. Speier. So, to the extent they already have the 
information, would you be willing to allow them to release that 
information to the general public and not be subject to this 
section 6?
    Mr. Kreiz. I think it's important to note that----
    Ms. Speier. Yes or no, please.
    Mr. Kreiz. Yes. But it's important to note that some of the 
information that is in the market is inaccurate and not always 
correct. And, of course, as I said, I'm saying here that we 
will commit to work collaboratively with the regulators.
    Ms. Speier. You just said, yes, you would allow the 
Consumer Product Safety Commission to release the names and 
information of any products associated with deaths that you 
have manufactured. That's what you just said. Is that correct?
    Mr. Kreiz. I said yes, but it's important that some of the 
information is not accurate. And, therefore, it's important 
that whatever is being released is vetted and confirmed before 
it's being put out there.
    Ms. Speier. Well, either a child has died or a child has 
not died. And if associated with a product, then I think the 
American public has the right to know.
    I yield back.
    Chairwoman Maloney. [Presiding.] The gentlelady from 
Massachusetts, Ms. Pressley, is now recognized for five 
minutes.
    Ms. Pressley. Thank you, Madam Chair. And thank you for 
convening this critically important hearing.
    And also given your prioritization of children in this 
committee, I thank you for your partnership on the Children's 
Protection Act, centering the health and well-being of our 
Nation's children.
    You know, for too long the Federal Government has not 
prioritized the safety and well-being of infants, toddlers, and 
children in the regulatory process. We are here today because 
our flawed system of consumer protection makes it far too easy 
for corporations and manufacturers like Mattel to hide the 
harmful and potentially deadly impacts of their products on the 
infants, toddlers, and children who use them. Additionally, 
because of a lack of oversight, companies may not even 
adequately research whether or not their products are safe for 
their intended and advertised use.
    The Rock n' Play Sleeper, built to be an aid to parents 
putting their babies to sleep fast and easy, resulted in more 
than 50 deaths from suffocation and injuries. Just last month 
or, rather, recently Fisher-Price executives told the committee 
that the company did not conduct any additional safety reviews 
of its infant products, despite the tragic loss resulting from 
the Rock n' Play Sleeper.
    Mr. Scothon, is it correct that Mattel did not conduct new 
safety reviews of its other infant products when deaths from 
the Rock 'n Play were first reported?
    Mr. Scothon. What I can say is when deaths of the Rock 'n 
Play were first reported, we investigated those extensively. We 
continued to do research. And we applied any of those learnings 
not just to anything that we might have found about we, again, 
continued to find the products----
    Ms. Pressley. I'm sorry. Reclaiming my time. I'll take that 
as a no.
    And the reason why I'm asking is just last week we learned 
that Mattel has agreed to recall two additional infant 
products, the Rock 'n Glide Soother and the Soothe 'n Play 
Glider, because of multiple infant deaths.
    Mr. Scothon, in light of these two recalls, has the company 
published any plans to conduct a safety review of its infant 
products that currently remain on the market?
    Mr. Scothon. So, we are always looking at all of the 
products that we market, that we sell, and we take those. The 
learnings that apply to the 2-in-1 Glider related to seeing 
that a product not intended for long-term sleep was being used 
in that manner----
    Ms. Pressley. Mr. Scothon, Mr. Scothon, it's a very simple 
question. So, just yes or no, has the company published any 
plans to conduct a safety review of its infant products that 
currently remain on the market?
    Mr. Scothon. We very not published any commitment to that 
effect but----
    Ms. Pressley. Thank you. Thank you.
    Mr. Kreiz, Mattel and Fisher-Price are two of the most 
recognized names in the world of infant and child products. 
Your own company's materials produced to the committee site the 
brand's name recognition as a competitive asset. Mr. Kreiz, 
would you agree that name recognition is an asset for Mattel? 
Yes or no?
    Mr. Kreiz. Yes.
    Ms. Pressley. And would you agree that consumers are more 
likely to trust that products from brands they recognize by 
name are safe and have been thoroughly vetted? Yes or no?
    Mr. Kreiz. Yes.
    Ms. Pressley. Given how your company has repeatedly abused 
this trust, do you support regulatory reforms which will 
prioritize the safety of children and make it easier for 
products to be recalled? Yes or no?
    Mr. Kreiz. I do not agree with your premise, respectfully.
    Ms. Pressley. All right. Moving on. I'll take that as a no.
    Parents understandably believe that when they buy products 
for their babies, those products have been thoroughly tested 
and are safe. They also believe and trust that rules and 
regulations are in place to hold manufacturers accountable. 
However, the current consumer product safety system is failing 
parents and families across the Nation. It is quite literally 
costing us the lives of our children.
    Today's hearing is devastating proof we cannot trust 
companies to act with moral clarity, even when babies' lives 
are on the line. And that is why we need to pass legislation 
like the Children's Protection Act proposed by Chairwoman 
Maloney and myself. We must hold companies accountable.
    Thank you, and I yield back.
    Chairwoman Maloney. The gentlelady from California, Ms. 
Porter, is recognized for five minutes.
    Ms. Katie Porter.
    Ms. Porter. Thank you so much, Madam Chair.
    Mr. Scothon, you served in a series of executive roles at 
Fisher-Price, which is part of Mattel, from 2000 to 2012. And 
those roles included developing and introducing the Rock 'n 
Play to American consumers in 2009, while you were executive. 
Fisher-Price marketed the Rock 'n Play as a safe, easy way for 
exhausted parents on a budget to get their babies to sleep at 
night. Is that correct?
    Mr. Scothon. I was with Mattel during 2000 to 2012. I was 
not involved in the Rock 'n Play development from 2009.
    Ms. Porter. Only. But that is how Fisher-Price marketed the 
product.
    And let me tell you, as an exhausted parent on a budget who 
wants their kids to go to sleep, babies to go to sleep, I can 
understand why American consumers responded to that marketing 
and purchased Rock 'n Play. Now it's been well-established at 
this point that inclined sleep can be harmful, even deadly, to 
infants. And today, Mr. Scothon, Fisher-Price and Mattel are no 
longer selling any incline sleeper products. Is that correct?
    Mr. Scothon. That is correct.
    Ms. Porter. And you've recalled all incline sleepers, and 
you've notified parents that they're dangerous. Is that 
correct?
    Mr. Scothon. The Rock 'n Play was our inclined sleeper 
product. That was recalled in 2019, and we have done all the 
outreach to due to prior to bringing the product back, yes.
    Ms. Porter. Do--you mentioned--I asked about all incline 
sleepers and you responded about the Rock 'n Play. Do you have 
other inclined sleepers on the marketplace today?
    Mr. Scothon. No. Once again, to clarify, there is an 
inclined sleeper which is something that is considered for 
long-term and overnight sleep and other products that are 
intended where a baby may fall asleep but we suggest that are 
then moved to a hard, flat surface. So, the Rock 'n Play----
    Ms. Porter. So, babies--babies, like exhausted moms, can 
fall asleep anywhere because they need sleep but, Mr. Scothon, 
you're a marketing expert. So, I want to ask you a marketing 
question, drawing on your expertise. If you wanted to sell 
someone a product related to sleep, would you mention things 
like counting sheep, catching some Z's, having sweet dreams? 
Because sleeping and dreaming are pretty closely tied together 
in folks' minds. You can't dream while you're awake. Correct?
    Mr. Scothon. Yes.
    Ms. Porter. OK. So, I want to ask you about a Fisher-Price 
product that I found on Target's website. It is called the 
Fisher-Price Sweet Snugapuppy, Sweet Snugapuppy Dreams Deluxe 
Bouncer. Would a baby sleeping in this and fell asleep in this; 
Dreams Deluxe Bouncer be at an incline?
    Mr. Scothon. If a baby fell asleep, yes, they would be at 
an incline.
    Ms. Porter. OK. And they would be asleep in this incline 
situation and it's marketed as Dreams Deluxe Bouncer but 
nowhere in your sales information, on your website, on Target's 
website, or Amazon's website does it say that a child should 
not be allowed to sleep in it. In fact, in response to a 
Question and A on the Mattel's website, it just says it 
shouldn't be used for prolonged periods of sleep. What does 
``prolonged'' mean?
    Mr. Scothon. Well, the way--the fact is we know that babies 
with the amount of hours that they sleep in a year will 
occasionally fall asleep wherever they might be and that's why 
we recommend and the warning statement state to not leave them 
unsupervised, to move them, and don't use it for prolonged 
sleep. And it's why we also----
    Ms. Porter. Reclaiming my time.
    Mr. Scothon. Yes.
    Ms. Porter. How long can my child safely sleep at an 
incline?
    Mr. Scothon. Again, I don't have that specific number. I, 
you know, what I would say is that----
    Ms. Porter. How long----
    Mr. Scothon [continuing]. If you were with your child----
    Ms. Porter. Reclaiming my time, how long can they have 
Sleep Snugapuppy dreams? Why are you marketing this as a 
product that will give people dreams if it's not for sleeping?
    Mr. Scothon. Again, we reference that as a product where a 
baby will sit and play and soothe and I understand your point 
but----
    Ms. Porter. You market it, just reclaiming my time, Mr. 
Scothon, you market it as a product where babies will dream a/
k/a sleep. And yet it is not safe for a baby to sleep in this 
position. So, I have two questions for you. Will you commit to 
parents and consumers right now to change the name of this 
product to avoid and remove any mention of ``dreams'' or 
``sleep'' from the name?
    Mr. Scothon. Back in 2019, we removed any reference to 
``sleep'' on all those products. I will commit to going back 
through all of our current offering, evaluating everything, and 
to ensure that we are as clear because, again, our commitment 
is to safety and I will commit to going back through every item 
to make sure we are sending the right message.
    Ms. Porter. OK. Last question. Will you commit to including 
in all future bouncer or similar products like this clear 
information for the parents that their children should never be 
allowed to sleep in these products? Because right now the only 
way you can find that is visiting the Fisher-Price Q and A. 
Will you put it on the product and in the description of the 
product that it is not--children should never be allowed to 
sleep?
    Mr. Scothon. I--we do put that there. We have also 
committed to the Safe Start campaign which is an educational 
video campaign to help parents understand----
    Ms. Porter. Mr. Scothon, it does not say on the Target web 
page not to allow your baby to sleep in this product. And it's 
called the Dreams Bouncer. Look at it. Look how cute the 
Snugapuppy is. I feel like taking a nap right now.
    Mr. Scothon, please don't market things about dreams or 
sleep or counting sleep or catching some Z's if the product 
isn't safe to sleep in. I'm sure it's a wonderful bouncer. I 
raised my kids in Fisher-Price products. I care about your 
company. I counted on your company. Please commit to taking 
action so that other parents can count on their kids getting 
safely to the teen years like mine have.
    Thank you very much, and I yield back.
    Chairwoman Maloney. The gentlelady's time has expired. She 
yields back.
    The gentleman from Maryland, Mr. Sarbanes, you are now 
recognized for five minutes.
    Mr. Sarbanes. Thank you very much, Madam Chair. I want to 
thank our witnesses for being here today.
    Representative Krishnamoorthi, I think, touched on 
something that has many of us on the committee anxious and that 
is that there seems to be a breakdown in the culture there at 
Mattel and Fisher-Price when it comes to safety which really is 
about integrity and leadership at all levels, certainly coming 
from the top. And I want to put a finer point on that.
    The testimony today, the track record around this product, 
and even to some degree your explanations of how we've gotten 
to this point suggest to me that you view the loss of life, in 
this case the loss of children's lives, as a cost of doing 
business in this space. Because it doesn't seem as though, 
until press reports or consumer reports or other outcrying 
criticism caught up with you, that you were willing to make 
some of the changes that you describe today and seek to reach a 
higher level of safety standard.
    Mr. Kreiz and Mr. Scothon, did you view loss of life as a 
cost of doing business for Mattel and Fisher-Price?
    Mr. Kreiz. Of course not. Safety is our highest priority. 
And nothing, nothing is more important to us than the safety 
and well-being of our consumers. And we--I can tell you that we 
are confident that all of our products are safe when used as 
intended in accordance with the warning and instructions.
    We always operate with integrity, with the highest 
integrity, with quality and safety as our most important 
priority. And this is how we operate the company.
    Mr. Sarbanes. Let me reclaim my time.
    I think you described a safety committee that has now been 
established. Can you tell me what that is again recently?
    Mr. Kreiz. I'm sorry. Can you repeat the question?
    Mr. Sarbanes. You mention a safety committee that has now 
been established. What is that exactly?
    Mr. Kreiz. This is a new committee composed of five 
pediatricians that we formed recently to provide medical and 
scientific advice to the company. The council meets regularly 
with our internal safety teams to provide professional 
opinions, advice, and recommendations.
    Mr. Sarbanes. When was that established?
    Mr. Kreiz. Earlier this year.
    Mr. Sarbanes. When exactly? I mean, in the last month or 
so?
    Mr. Kreiz. I can't recall exactly. Around February or 
March.
    Mr. Sarbanes. Uh-huh. If safety has been historically the 
highest priority--you keep saying that over and over again--why 
is it that it took until the first months of this year after 
all of this outcry and heightened accountability coming at you 
to establish a safety committee with five pediatricians and 
other experts, I gather? Why did it take this long if safety is 
a cultural hallmark of your company?
    Mr. Kreiz. Well, we always aim to improve. And I can tell 
you that this committee specifically was been in the works for 
many months before until we identified the right doctors, the 
right pediatricians with the highest qualifications we could 
find that we believe would be a very important support in our 
safety practices.
    Mr. Sarbanes. Well, what I understand from the record is 
this search for the pediatricians, the highest standard and 
expertise, is one that you had completely abandoned or never 
actually undertaken previously, because the people advising you 
on the particular product that we're looking at today didn't 
seem to meet that standard.
    So I'm glad you've done it but it troubles me that you only 
set this thing up, in a sense, after the fact and I think the 
standard by which you're seeking to operate now is in effect an 
admission that the standard that you were using previously was 
woefully inadequate.
    And I'm going return what I said at the front of this call, 
because I still think it's an accurate description. I think 
until you got called out significantly on the dangers around 
this product, the view from inside the company--now hopefully 
it's not a cultural perspective but if it is, it needs to be 
cleaned up. The view from inside the company is, if there's 
loss of life, that's a cost of doing business.
    With that, I yield back my time, Madam Chair.
    Chairwoman Maloney. The gentleman yields back.
    Before we close, I want to offer Mr. Cloud an opportunity 
to offer any closing remarks he may have.
    Mr. Cloud, you are now recognized.
    Mr. Cloud. I just want to thank the chairwoman for this 
topic. As you know, has been mentioned, this is an extremely 
important topic. Nothing could be more concerning than safety, 
security of our children when buying one of these products.
    Also just want to echo we would love to be able to 
collaborate on these sort of topics. And so as many committee 
members have mentioned, the ability for us to be able to be 
involved in the process, even from a committee level in 
preparing reports and such, and to get them in advance in such 
a way that we could have time to review them before hearings on 
said reports would be extremely helpful.
    And it's also been mentioned that there's a number of 
topics that we were ready to address in the last--in the last 
term under a different administration that this committee has 
not been willing to take up during this term and they're as 
much as important to the American people now as they were then. 
Many of the issues have only gotten worse and, therefore, need 
to be addressed even more and so I would just, as we continue 
to move forward, continue to urge that those topics be taken up 
in future committee hearings.
    Thank you for the testimony today. Thank you for being here 
to work with us on this issue. We look forward to continued 
discussions on this.
    Thank you very much, Chairwoman.
    Chairwoman Maloney. The gentleman yields back and I thank 
you and I now recognize myself.
    I would like to thank our witnesses for their testimony 
today and Mattel for cooperating with the committee's 
investigation.
    Before I close, I would like to enter into the record 
letters and statements the committee received including one 
from a mother whose daughter died while she was in a Rock 'n 
Play and a--several others regarding the flaws in Federal 
oversight of consumer product safety.
    I ask unanimous consents that these materials be placed in 
the record as part of the official hearing.
    So ordered.
    Chairwoman Maloney. I am appalled by the conduct of this 
company in selling a product for 10 years, despite the company 
knowing the risk to infants. Fisher-Price admitted here today 
for the first time 97 infants died in the Rock 'n Play. That is 
nearly twice the number of deaths previously reported, and it's 
nearly seen times the number that Fisher-Price admitted to CPSC 
in 2018 when it was fighting tooth and nail--they were fighting 
to stop the recall.
    It is clear that Fisher-Price has not been honest with the 
American public, with the American parents about the danger of 
this product.
    So, Mr. Kreiz, Mr. Scothon, I am asking your company 
provide complete records on every single death in the Rock n' 
Play Sleeper you sold, regardless of where these babies died. 
We also need records of all infants who died in your company's 
other products including sleepers, rockers, or gliders.
    Mr. Kreiz and Mr. Scothon, will you commit to providing 
those documents to the committee by the end of the week? Will 
you?
    Mr. Kreiz. We're happy to cooperate and I can't commit to 
provide all documents, if they're not available, but we will do 
whatever we can to comply with your request.
    Chairwoman Maloney. By the way, I want to be clear that I 
hold the Federal Government to the very same standard. And just 
this last week I reintroduced 3716, along with Congresswoman 
Pressley, with whom I've worked on the Children's Protection 
Act. Right now, Federal agencies are not required to analyze or 
disclose the impact of regulatory changes on children, and they 
rarely provide evidence that their policies do no harm to 
Americans's youth.
    Mr. Kreiz, do you think the Federal Government should be 
required to perform such analysis and disclosures before 
Federal rules go into effect? Mr. Kreiz.
    Mr. Kreiz. We will do whatever we can do support your 
actions and your recommendations. We share a common interest 
and a common commitment to safety, and we will do whatever we 
can from our side to support you and collaborate with you.
    Chairwoman Maloney. Well, I firmly believe that this 
rigorous analysis and transparency is critical, which is why 
H.R. 3716 would require Federal agencies to undertake a 
childhood trauma impact study before a rule is finalized to 
ensure the health and well-being of all children are 
prioritized.
    These analyses would be conducted by review panels with 
expertise in children's health and education, as well as 
experience in advocating for the health and welfare of all 
children.
    It is absolutely crucial that the actions of industry and 
government alike are informed by expert analysis when it comes 
to the health and well-being of children before it is too late.
    Had Mattel done adequate research before bringing this 
product to market, if they had conducted interviews with 
licensed pediatricians, disclosed infant deaths to the public 
when they learned about them, or agreed to recall it earlier, 
lives of children would have been saved.
    With the two new recalls announced just last week, we now 
know that Mattel also left other products on the market that 
posed the same dangers as Rock 'n Play and more infants have 
died. Enough is enough. We need to put people before profits.
    The committee's investigation and today's testimony show 
what happens when corporations hold the power to set the safety 
standards for their own products, to withhold information from 
consumers, and to delay recalls for months or even years to 
protect their bottom line.
    CPSC's new rule banning infant inclined sleepers is an 
important step toward getting these dangerous products off the 
market, but the new rule is not enough to protect consumers 
from other dangerous products in the future.
    CPSC needs stronger oversight and enforcement tools so that 
parents can buy products for their children without fear of 
lurking dangers. The Consumer Product Safety Act was enacted to 
protect consumers, but it is clearly falling short and not 
working. Congress must act to strengthen this law and protect 
Americans from dangerous products.
    Thank you and in closing I want to thank our panelists for 
their remarks and I want to commend my colleagues for 
participating in this important conversation.
    With that and without objection, all members will have five 
legislative days within which to submit extraneous materials 
and to submit additional written questions for the witnesses to 
the chair which will be forwarded to the witnesses for their 
response. I ask our witnesses to please respond as promptly as 
you can.
    This hearing is adjourned.
    [Whereupon, at 1:44 p.m., the committee was adjourned.]

                          [all]
</pre></body></html>
